<html>
<title> - COMBATING TERRORISM: IN SEARCH OF A NATIONAL STRATEGY</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




         COMBATING TERRORISM: IN SEARCH OF A NATIONAL STRATEGY

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 27, 2001

                               __________

                           Serial No. 107-18

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                  U.S. GOVERNMENT PRINTING OFFICE
75-970                     WASHINGTON : 2001

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 ------ ------
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Advisor
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 27, 2001...................................     1
Statement of:
    Hoffman, Bruce, director, Washington Office, RAND Corp.; 
      James Clapper, Jr., Lieutenant General, USAF (Ret.), vice 
      chairman, Advisory Panel to Assess the Domestic Response 
      Capabilities for Terrorism Involving Weapons of Mass 
      Destruction, accompanied by Michael Wermuth, project 
      director; and Frank Cilluffo, chairman, Report on Combating 
      Chemical, Biological, Radiological, and Nuclear Terrorism, 
      Center for Strategic and International Studies.............    88
    Rudman, Hon. Warren B., Co-Chair, U.S. Commission on National 
      Security/21st Century; and Charles G. Boyd, General, USAF 
      (Ret.), executive director, U.S. Commission on National 
      Security/21st Century......................................    19
Letters, statements, etc., submitted for the record by:
    Cilluffo, Frank, chairman, Report on Combating Chemical, 
      Biological, Radiological, and Nuclear Terrorism, Center for 
      Strategic and International Studies, prepared statement of.   127
    Clapper, James, Jr., Lieutenant General, USAF (Ret.), vice 
      chairman, Advisory Panel to Assess the Domestic Response 
      Capabilities for Terrorism Involving Weapons of Mass 
      Destruction, prepared statement of.........................   104
    General Accounting Office, prepared statement of.............    11
    Hoffman, Bruce, director, Washington Office, RAND Corp., 
      prepared statement of......................................    92
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     6
    Rudman, Hon. Warren B., Co-Chair, U.S. Commission on National 
      Security/21st Century, prepared statement of...............    25
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Article by Sydney Freedberg, Jr., entitled, ``Beyond the 
          Blue Canaries''........................................    77
        Prepared statement of....................................     3

 
         COMBATING TERRORISM: IN SEARCH OF A NATIONAL STRATEGY

                              ----------                              


                        TUESDAY, MARCH 27, 2001

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Putnam, Lewis of Kentucky, 
Gilman, Kucinich, and Tierney.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; R. Nicholas Palarino, senior policy advisor; Thomas 
Costa, professional staff member; Jason Chung, clerk; Alex 
Moore, fellow; David Rapallo, minority counsel; Earley Green, 
minority assistant clerk; and Teresa Coufal, minority staff 
assistant.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Veterans Affairs and International 
Relations' hearing entitled, ``Combating Terrorism: In Search 
of a National Strategy,'' is called to order.
    Last week we learned the stalled investigation of the 
Khobar Towers bombing that killed 19 Americans has been beset 
by a long-simmering power struggle between the FBI Director and 
the U.S. Attorney assigned to bring terrorism perpetrators to 
justice. Transfer of the case to another prosecutor may breathe 
new life into the 5-year-old inquiry, but the change is also a 
symptom of a suffocating problem plaguing the Federal effort to 
combat terrorism--in a word, ``turf.''
    In 1995, the President designated the Federal Emergency 
Management Agency as the lead Federal agency for consequence 
management--the measures needed to protect life, restore 
essential services, and provide emergency relief after a 
terrorism event involving conventional, biological, chemical, 
or radiological weapons of mass destruction.
    The FBI, part of the Department of Justice, was directed to 
lead crisis management--the measures needed to prevent or 
punish acts of terrorism.
    Today, more than 40 Federal departments and agencies 
operate programs to deter, detect, prepare for, and respond to 
terrorist attacks. We put their names out to demonstrate how 
difficult it would be to get them all in one room, much less 
get them all to speak with one voice.
    While some interagency cooperation and information sharing 
has begun, substantial barriers, including legislative 
mandates, still prevent a fully coordinated counterterrorism 
effort. As the organizational charts get more complex, the 
effort inevitably becomes less cohesive.
    In our previous hearings, we found duplicative research 
programs and overlapping preparedness training. Despite 
expenditure of more than $9 billion last year, many local first 
responders still lack basic training and equipment.
    According to our witnesses this morning, the fight against 
terrorism remains fragmented and unfocused, primarily because 
no overarching national strategy guides planning, directs 
spending, or disciplines bureaucratic balkanization. They will 
discuss recommendations for reform of counterterrorism programs 
that the new administration would be wise, very wise, to 
consider.
    When pressed for a national strategy, the previous 
administration pointed to a pastiche of event-driven 
Presidential decision directives and an agency-specific 5-year 
plan. Reactive in vision and scope, that strategy changed only 
as we lurched from crisis to crisis, from Khobar to the U.S.S. 
Cole, from Oklahoma City to Dar es Salaam.
    In January, the subcommittee wrote to Dr. Condoleeza Rice, 
the President's national security advisor, regarding the need 
for a clear national strategy to combat terrorism. The 
administration has begun a thorough review of current programs 
and policies. In deference to that review, the subcommittee 
will not receive testimony from executive agencies' witnesses 
today. They will appear at a future hearing. That hearing will 
be in the very near future.
    Terrorists willing to die for their cause will not wait 
while we rearrange bureaucratic boxes on the organizational 
chart. Their strategy is clear. Their focus is keen. Their 
resources efficiently deployed. Our national security demands 
greater strategic clarity, sharper focus, and unprecedented 
coordination to confront the threat of terrorism today.
    We look forward to the testimony of our very distinguished 
witnesses as we continue our oversight of these critical 
issues.
    At this time I would like to recognize Dennis Kucinich, the 
ranking member of the committee.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T5970.001
    
    [GRAPHIC] [TIFF OMITTED] T5970.002
    
    Mr. Kucinich. Thank you very much, Mr. Chairman, for 
calling this hearing.
    I want to welcome the witnesses.
    I have a prepared statement. I would like to insert it in 
the record and just note that I am hopeful that, as we review 
this counterterrorism program, that we would also have the 
opportunity to explore causal relationships in terrorism so 
that we may learn why our Nation feels it needs such a sweeping 
counterterrorism presence.
    I thank you.
    Mr. Shays. I thank the gentleman.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T5970.003

[GRAPHIC] [TIFF OMITTED] T5970.004

[GRAPHIC] [TIFF OMITTED] T5970.005

[GRAPHIC] [TIFF OMITTED] T5970.006

    Mr. Shays. At this time I recognize the vice chairman, Adam 
Putnam.
    Mr. Putnam. Thank you, Mr. Chairman. I also have a 
statement to submit for the record, but I appreciate your 
calling this hearing. Clearly, as the charts around us 
indicate, the national strategy against terrorism is that there 
is not one national strategy against terrorism.
    Recent events--Khobar, Oklahoma City, a number of other 
places around the world--have clearly indicated the need for us 
to further refine our efforts and our preparations for these 
types of acts of violence against American citizens and our 
interests, and I look forward to the testimony from the 
witnesses.
    Mr. Shays. Thank you.
    I recognize Ron Lewis from Kentucky.
    Mr. Lewis of Kentucky. Thank you, Mr. Chairman.
    I would just like to welcome our witnesses. I'm looking 
forward to their testimony. This certainly is a complex 
problem, but we certainly need to be doing everything we can to 
solve this as soon as possible.
    Thank you.
    Mr. Shays. Thank you.
    Before calling our witnesses and swearing them in, I just 
want to get rid of some housekeeping here and ask unanimous 
consent to insert into the hearing record a statement from the 
General Accounting Office discussing the fragmentation and lack 
of strategic focus in current Federal counterterrorism 
programs. Based on many of the studies and audits conducted for 
this subcommittee, GAO recommends greater use of Results Act 
principles to measure progress toward a truly national 
strategy.
    Without objection, so ordered.
    [The prepared statement of the General Accounting Office 
follows:]

[GRAPHIC] [TIFF OMITTED] T5970.007

[GRAPHIC] [TIFF OMITTED] T5970.008

[GRAPHIC] [TIFF OMITTED] T5970.009

[GRAPHIC] [TIFF OMITTED] T5970.010

[GRAPHIC] [TIFF OMITTED] T5970.011

[GRAPHIC] [TIFF OMITTED] T5970.012

[GRAPHIC] [TIFF OMITTED] T5970.013

[GRAPHIC] [TIFF OMITTED] T5970.014

    Mr. Shays. And I ask unanimous consent that all members of 
the subcommittee be permitted to place an opening statement in 
the record, and that the record remain open for 3 days for that 
purpose.
    Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statement in the record. 
Without objection, so ordered.
    At this time, I would welcome our primary witness, the 
Honorable Warren B. Rudman, who is co-chair, and Charles G. 
Boyd, General, executive director. Mr. Rudman is co-chair on 
the U.S. Commission on National Security/21st Century.
    As you know, Mr. Rudman, we swear in all our witnesses, and 
I would welcome both our witnesses to stand.
    [Witnesses sworn.]
    Mr. Shays. Thank you. Note for the record both of our 
witnesses responded in the affirmative.
    Senator Rudman, what we do is we do the 5 minute, but we 
turn it over because we do want you to make your statement and 
we do want it part of the record, and then we'll ask you some 
questions.
    Thank you.

STATEMENTS OF HON. WARREN B. RUDMAN, CO-CHAIR, U.S. COMMISSION 
    ON NATIONAL SECURITY/21ST CENTURY; AND CHARLES G. BOYD, 
 GENERAL, USAF (RET.), EXECUTIVE DIRECTOR, U.S. COMMISSION ON 
                 NATIONAL SECURITY/21ST CENTURY

    Senator Rudman. Thank you, Mr. Chairman. I don't think I 
have more than 5 minutes, and I expect General Boyd has a few 
minutes, and we are here for as long as you need us.
    Mr. Chairman, I'm honored to be here today on behalf of the 
U.S. Commission on National Security/21st Century. I co-chair 
this with former Senator Gary Hart. Senator Hart is in London 
and unable to be here, and I am delighted that General Boyd is 
able to accompany me.
    For those of you that are not familiar with the background 
of the membership of this Commission, it was very unique. It 
was the brain child of former Speaker Newt Gingrich, who looked 
at the fragmentation that was called to his attention in this 
area of terrorism against our homeland, approached President 
Clinton, and together they put together legislation which 
created this Commission. It was then turned over, for 
administrative purposes, to the Department of Defense. The 
funding came out of the Department of Defense.
    We have been at this for more than 2 years. This has not 
been a staff-run activity. This has been an activity run very 
much by the commissioners, themselves, who spent a great deal 
of time over this period of 2 years, including a number of 
weekends at various retreats going over and fighting out these 
issues. When you read the report, you'll find that it is not 
like many reports which try to recommend that which is 
possible; this report recommends what we think you ought to do.
    Now, politically that's your problem and not ours, but we 
didn't think we ought to give you our political judgment. We 
thought we ought to give you our best judgment, and we have 
given you a road map of how to do these things.
    For those of you who unfamiliar with the Commission, let me 
tell you alphabetically who served, and it was totally 
bipartisan: Ann Armstrong, former chairman of the PIFIAD and 
also Ambassador to the Court of St. James; John Dancy, some of 
you know, international correspondence for many years for NBC 
News; Les Geld, president of the Council on Foreign Relations; 
Lee Hamilton, familiar to all of you here in the House; Donald 
Rice, former Secretary of the Air Force, former head of RAND 
Corp.; Harry Train, former commander in chief, Atlantic, a 
four-star admiral; Norm Augustine, well known to many of you 
for his work in Government, but, of course, best known probably 
as being chairman of Lockheed Martin; Jack Galvin, former head 
of NATO; Newt Gingrich; Lionel Almer, Under Secretary of 
Commerce at one time in the Reagan administration for 
international trade; Jim Schlesinger, who held, I believe, four 
or five Cabinet posts in various administrations; and Andrew 
Young, a former commissioner--former Ambassador to the United 
Nations and former mayor of Atlanta.
    I want to get directly to the question that your letter of 
invitation posed to us, and you asked: why is there no 
comprehensive national strategy to combat terrorism?
    I would start my answer by pointing out that dealing with 
terrorism is an enormously complex problem. As we all 
understand, terrorism is varying and varyingly motivated. 
Sometimes it emanates from States, sometimes from groups, or 
even from individuals. Sometimes it comes from combinations of 
state sponsorship and non-State actors, or either one. The 
source of these groups are wide, coming from no one region of 
the world. And, as we have had the misfortune to learn, it can 
include domestic elements, as well.
    Terrorism also takes several tactical forms--
assassinations, bombing, biological or chemical attack, cyber 
terror, and potentially terrorism perpetrated by the use of 
weapons of mass destruction.
    Terrorists may also choose a wide array of targets, a 
complexity that has generated considerable confusion. While 
some scholars define ``terrorism'' in its basic form as 
essentially unconventional attacks on civilians for any of 
several purposes, others include attacks on uniformed military 
personnel operating abroad as forms of terrorism, such as 
Khobar Towers, such as the U.S.S. Cole incident. Others 
disagree. They consider such attacks to be another method of 
waging conventional warfare. The distinction is not just 
definitional or theoretical. Unfortunately, it influences how 
the U.S. Government approaches policy solutions to these 
problems.
    Clearly, given this diversity of motives, sources, tactics, 
and definitions, the responsibility of dealing with terrorism 
within the U.S. Government ranges over a wide array of 
executive branch departments and agencies, as well as several 
Senate and House committees on the legislative branch side. 
Developing any effective comprehensive strategy for dealing 
with terrorism would be difficult in any event, but under these 
circumstances even more so.
    And I must say, Mr. Chairman, I'm a great believer in 
graphics. Whether these have just been placed here for future 
witnesses or whether they are here to illustrate the problem, 
there it is in front of you. You could not have a more clear, 
definitive definition of what we're talking about than looking 
at the names, all of them great organizations, well motivated, 
trying to do the right thing, but look at the number of them. 
Whoever on your staff came up with that idea deserves an Oak 
Leaf Cluster. [Laughter.]
    Mr. Shays. Why do you make an assumption, sir, that it was 
staff that thought of that? [Laughter.]
    Senator Rudman. Maybe that's because I served in the 
Senate.
    The U.S. Commission on National Security/21st Century 
concluded that, however difficult the problem with terrorism 
may be, we simply must do a better job of dealing with it. 
There is no national security problem of greater urgency.
    The Commission phase one report on the national security 
environment of the next 25 years concluded unequivocally, based 
on unbelievably lengthy, complex, and detailed testimony from 
many in this Government, concluded that the prospect of mass 
casualty terrorism on American soil is growing sharply. We 
believe that over the next quarter of a century the danger will 
not only be one of the most challenging we face, but the one we 
are least prepared to address.
    The Commission's phase two report on strategy focused 
directly on this challenge, arguing that the United States 
needed to integrate the challenge of homeland security fully 
within its national security strategy.
    The Commission's phase three report, released on January 
31st and delivered to the President on that day, devotes an 
entire first section, one of five, to the problem of organizing 
the U.S. Government to deal effectively with homeland security.
    We have argued that to integrate this issue properly into 
an overall strategy framework there must be a significant 
reform of the structures and processes of the current national 
security apparatus.
    As you know, Mr. Chairman, the phase three report 
recommends the creation of a National Homeland Security Agency. 
Before I discuss this proposal, I wish to stress what the 
Commission intends and does not intend to achieve with its 
recommendations, because some of it I believe has been 
misunderstood--probably by people who didn't read it very 
carefully, but it has, nevertheless, been misunderstood.
    The United States needs to inculcate strategic thinking and 
behavior throughout the entire national security structure of 
Government. In the Commission's view, and notwithstanding the 
early exertions of the new administration, we have a long way 
to go in this regard. We have not had in recent years a process 
of integrated strategy formulation, a top-down approach led by 
the President and the senior members of his national security 
team, where priorities were determined and maintained and where 
resources were systematically matched to priorities.
    There has been almost no effort to undertake functional 
budgeting analysis for problems that have spread over the 
responsibilities of many executive branch departments and 
agencies, the result being that it is extremely difficult for 
the Congress, in its oversight role, to have a sense of what 
any administration is doing with respect to major national 
security objectives.
    Finally, there has been no systematic effort from the NSC 
level to direct the priorities of the intelligence community to 
align them with the priorities of national strategy.
    I might say to you in another hat that I've worn for the 
last 8 years as chairman and vice chairman of PIFIAD, I can 
tell you that statement is absolutely sound and something that 
needs to be addressed.
    It needs to be clear, before we discuss the proposal for 
National Homeland Security Agency, we conceived of the National 
Homeland Security Agency as a part of, not a substitute for, a 
strategic approach to the problem of homeland security. 
Clearly, even with the creation of that agency, the National 
Security Council will have a critical role in coordinating the 
various Government departments and agencies involved in 
homeland security.
    The Commission's proposed strategy for homeland security is 
threefold: to prevent, to protect, and to respond to the 
problem of terrorism and other threats to the United States.
    The Department of State has a critical role in prevention, 
as does the intelligence community and others. The Department 
of Defense has a critical role in protection, as do other 
departments and agencies. Many agencies of Government, 
including, for example the Centers for Disease Control in the 
Department of HHS, have a critical role in response. Clearly, 
we are proposing to include sections of the intelligence 
community, the State Department, the Defense Department, and 
the Department of Health and Human Services in this new agency. 
As with any other complex functional area of Government 
responsibility, no single agency will ever be adequate for the 
task.
    That said, the United States stands in need of a stronger 
organizational mechanism for homeland security. It needs to 
clarify accountability, responsibility, and authority among the 
departments and agencies with a role to play in this 
increasingly critical area. It needs to realign the diffused 
responsibilities that sprawl across outdated concepts of 
boundaries. It also needs to recapitalize several critical 
components of U.S. Government. We need a Cabinet-level agency 
for this purpose. The job has become too big, requires too much 
operational activity to be housed at the NSC level. It is too 
important to a properly integrated national strategy to be 
handed off to a czar. We seem to have czaritis in this 
Government for the last 10 years. It didn't work in Russia, and 
I don't think it has worked very well here. It requires an 
organizational focus of sufficient heft to deal with the 
Departments of State, Defense, and Justice in an efficient and 
an effective way.
    Mr. Chairman, the Commission's proposal for a National 
Homelands Security Agency is detailed with great care and 
precision in the phase three report. With your kind permission, 
I would like to include that section of the report in the 
record here, for I see no need to repeat here word-for-word 
what the report has already said and is available to all.
    Mr. Shays. Without objection, we will be happy to do that.
    Senator Rudman. So I will give that to you.
    However, I would like to describe the proposal's essence 
for the subcommittee. I will not mince words. We propose a 
Cabinet-level agency for homeland security whose civilian 
director will be a statutory advisor to the National Security 
Council, the same status as that of the Director of the Central 
Intelligence Agency or the chairman of the Joint Chiefs of 
Staff. The director will be appointed by the President and 
confirmed by the Senate.
    The basis of this agency will be the present Federal 
Emergency Management Agency. Added to FEMA will be the Coast 
Guard from the Department of Transportation; the Border Patrol 
from the Department of Justice under INS; the Customs Service, 
the law enforcement part of Customs Service, from the 
Department of Treasury; the National Domestic Preparedness 
Office [NDPO], currently houses the FBI; and an array of cyber 
security programs now housed varyingly in the FBI, the Commerce 
Department and elsewhere.
    Together, the National Homeland Security Agency will have 
three directives--prevention, critical infrastructure, 
protection, and emergency preparedness and response--and a 
national crisis action center to focus Federal action in the 
event of a national emergency. The agency will build on FEMA's 
regional organization and will not be focused in D.C. It will 
remain focused on augmenting and aiding State and local 
resources.
    The purpose of this realignment of assets is to get more 
than the sum of the parts from our effort in this area. Right 
now, unfortunately, we are getting much less than the sum of 
the parts. We are not proposing vast new undertakings. We are 
not proposing a highly centralized bureaucratic behemoth. We 
are not proposing to spend vastly more money than we are 
spending now. We are proposing a realignment and a 
rationalization of what we already do so we can do it right. In 
this regard, we intend for the union of FEMA, Coast Guard, 
Border Patrol, Customs, and other organizational elements to 
produce a new institutional culture, new synergies, and a 
higher morale. We are proposing to match authority, 
responsibility, and accountability. We are proposing the solve 
the ``who's in charge'' problem.
    Perhaps the most important of all, we are proposing to do 
all this in such a way as to guarantee the civil liberties that 
we all hold so dear. Since it is very likely the Defense 
Department assets would have to come into play in response to a 
mass casualty attack on U.S. soil, the best way ensure that we 
violate the U.S. Constitution is to not plan and train ahead 
for such contingencies.
    The director of the National Homeland Security Agency, I 
repeat, is a civilian. If no such person is designated, 
responsible ahead of time to plan, train, and coordinate for 
the sort of national emergency of which we are speaking, I 
leave it to your imagination and to your mastery of American 
history to predict what a condition of national panic might be 
produced in this regard.
    Mr. Chairman, one final point, if I may. All 14 of us on 
this Commission are united in our belief that this proposal is 
the best way for the U.S. Government to see this as a common 
defense. All 14 of us, without dissent, agreed to put this 
subject first and foremost in our final report. All 14 of us--7 
democrats and 7 Republicans--are determined to do what we can 
to promote this recommendation on a fully bipartisan basis.
    But we are not naive. We know that we are asking for big 
changes. I know, as a former member of the legislative branch, 
that what we are proposing requires complex and difficult 
congressional action. This proposal stretches over 
jurisdictions of at least seven committees, plus they are 
appropriations committees counterparts of the House and the 
Senate. This is why, Mr. Chairman, the work of this committee 
and the Committee on Government Reform is so critical to the 
eventual success of this effort, and that is why I again want 
to express my gratitude for the opportunity to be here today.
    Finally, Mr. Chairman, before General Boyd testifies, I 
just want to tell you a little bit about General Boyd which 
would not be known. General Boyd was asked by Speaker Gingrich 
at the time, who he knew personally, to head up this effort. 
General Boyd spent 6\1/2\ years in a Hanoi prison. He is the 
only POW who reached four-star rank, and following that held 
enormously responsible positions throughout our Government 
until his retirement. We were very fortunate to have General 
Boyd lead our effort. I always told him I thought it was a 
little bit beneath his pay grade, but he was willing to take 
this on as executive director.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Senator.
    [The prepared statement of Hon. Warren B. Rudman and the 
report referred to follow:]

[GRAPHIC] [TIFF OMITTED] T5970.015

[GRAPHIC] [TIFF OMITTED] T5970.016

[GRAPHIC] [TIFF OMITTED] T5970.017

[GRAPHIC] [TIFF OMITTED] T5970.018

[GRAPHIC] [TIFF OMITTED] T5970.019

[GRAPHIC] [TIFF OMITTED] T5970.020

[GRAPHIC] [TIFF OMITTED] T5970.021

[GRAPHIC] [TIFF OMITTED] T5970.022

[GRAPHIC] [TIFF OMITTED] T5970.023

[GRAPHIC] [TIFF OMITTED] T5970.024

[GRAPHIC] [TIFF OMITTED] T5970.025

[GRAPHIC] [TIFF OMITTED] T5970.026

[GRAPHIC] [TIFF OMITTED] T5970.027

[GRAPHIC] [TIFF OMITTED] T5970.028

[GRAPHIC] [TIFF OMITTED] T5970.029

[GRAPHIC] [TIFF OMITTED] T5970.030

[GRAPHIC] [TIFF OMITTED] T5970.031

[GRAPHIC] [TIFF OMITTED] T5970.032

[GRAPHIC] [TIFF OMITTED] T5970.033

[GRAPHIC] [TIFF OMITTED] T5970.034

[GRAPHIC] [TIFF OMITTED] T5970.035

[GRAPHIC] [TIFF OMITTED] T5970.036

[GRAPHIC] [TIFF OMITTED] T5970.037

[GRAPHIC] [TIFF OMITTED] T5970.038

[GRAPHIC] [TIFF OMITTED] T5970.039

[GRAPHIC] [TIFF OMITTED] T5970.040

[GRAPHIC] [TIFF OMITTED] T5970.041

[GRAPHIC] [TIFF OMITTED] T5970.042

[GRAPHIC] [TIFF OMITTED] T5970.043

[GRAPHIC] [TIFF OMITTED] T5970.044

[GRAPHIC] [TIFF OMITTED] T5970.045

[GRAPHIC] [TIFF OMITTED] T5970.046

[GRAPHIC] [TIFF OMITTED] T5970.047

    Mr. Shays. It may have been beneath his pay grade, but I 
think he realizes the important work of the Commission and, 
therefore, was happy to serve.
    It is wonderful, Senator, to have you here. You are such a 
distinguished witness, and the Commission has done such an 
outstanding job.
    Obviously, General, it is a tremendous honor to have you 
testify before the committee, for your service to our country.
    I'm just going to acknowledge the presence of Mr. Gilman, 
Ben Gilman, who is the former chairman of the International 
Relations Committee. We will be calling on him shortly.
    General Boyd, we are happy to have you make your statement.
    General Boyd. There's not much I can add to that statement.
    Mr. Shays. Is that because you wrote it? [Laughter.]
    General Boyd. That is his statement, sir. That is his 
statement.
    I might add one piece of evidence or emphasis or 
amplification. I believe at the outset of this enterprise if 
you would have queried the 14 commissioners and asked them if 
they were going to end up at the end making their most 
important recommendation, their highest priority 
recommendation, the forming of a National Homeland Security 
Agency I think they would have scoffed at the idea. But as time 
went on--and I watched their thinking develop, and they watched 
and saw the evidence from the intelligence community, as they 
traveled about--and they traveled throughout the world to over 
two dozen countries--there was a gradual coming together of 
their thinking along the lines as follows.
    One, that the resentment focused toward the United States 
throughout much of the world I think came as a surprise. As a 
symbol of the globalizing vectors that we are on and the 
exclusion of so many people and nations from that process, and 
the emphasis of the United States being the symbol of that 
vector has produced a degree of resentment that, as I say, I 
think came as a surprise to many.
    It was crystallized one night as we were in Egypt talking 
with a group of scholars, and one of them, a distinguished 
gentleman, looked at us and said, ``The problem for you over 
the next quarter of a century is managing resentment throughout 
the world against your country.'' At some level I think that 
was a message we got everywhere.
    When we coupled that with all of the intelligence that we 
have access to and saw that the proliferation of these 
capabilities, these weapons of mass destruction, weapons of 
mass disruption into the hands of State and non-state actors 
who never before in history had that kind of power that they 
could wield against a great State, and coupled with what they 
might consider reason to be resentful of us, we had the formula 
for a security problem that, as the Senator said, we feared we 
just weren't addressing in any sophisticated or complete way.
    I think that's what drove these commissioners to the set of 
conclusions that they reached at the end. Stacking this as the 
most important, the highest priority national security 
objective that our Nation should adopt.
    Mr. Shays. Thank you very much, General.
    It is, candidly, a very stunning recommendation, and one 
that I was surprised by, but, given the work that our committee 
has done, we, I think, can fully understand why it was made.
    I would make the point to you that Mac Thornberry has 
introduced legislation that incorporates your recommendations. 
It was sent to this committee, and it will--excuse me, sent to 
the full committee, I think probably sent to this committee, 
but not sure. But, at any rate, I believe it will be seriously 
considered by the committee.
    Senator Rudman. Mr. Chairman, I believe that Congressman 
Skelton also is introducing or has introduced or about to a 
major piece of legislation, not precisely like Congressman 
Thornberry's, but dealing with this issue based on our program.
    Mr. Shays. That's great to know. We will be following that, 
as well.
    At this time I would call on Adam Putnam, the vice chairman 
of the committee, to start the questioning.
    Mr. Putnam. Thank you, Mr. Chairman.
    I thank the panel for their very intriguing and unnerving 
testimony, but certainly you fulfilled your role in thinking 
outside the box and bringing us a very innovative approach.
    You make great reference to managing this resentment. How 
much of this resentment is of our own doing that could be 
addressed through consistency policy or redirection of 
policies, and how much of it is, as you alluded to, an overall 
vexing discomfort that we see even in our own country over the 
uncontrollable forces of globalization?
    Senator Rudman. Well, I'll answer briefly and let General 
Boyd comment.
    There were some things that will change only if and when 
American foreign policy changes in some areas--and I'm not 
suggesting it should be changed, I'm just trying to answer your 
question. Certainly in the Middle East it is our foreign policy 
in the middle east that drives this resentment. I've had that 
kind of--some up-close and personal experience with that 
recently, and there is no question that there was deep 
resentment, and the Osama Ben Laden activities are driven by 
our policy. I have always thought our policy was the correct 
policy, but obviously people out there don't.
    In other parts of the world it is not so much our policy as 
our projected strength. You know, nobody likes the big guy. 
Sometimes we haven't been over the years too circumspect in how 
we dealt with our bigness, so there's that kind of resentment. 
And that, of course, plays right into the last part of your 
question, Congressman Putnam, and that was the fact that 
undoubtedly globalization tends to put all of us under a 
magnifying glass. And you put it all together and you find this 
resentment at an extraordinary level, which I think surprised 
even some of us who had major foreign travel, had served on 
major committees that dealt with these issues, but the 
resentment was substantial.
    Chuck, do you want to add to that at all?
    General Boyd. Just this--that if you develop a strategy, a 
national security strategy, for dealing with this problem, it 
seems to me that the--and along the lines that we have 
suggested, the framework of which would be a protection--
prevention, protection, and response.
    The prevention piece deals at the heart of this problem. 
The Diplomatic Corps would be at the forefront of dealing with 
this problem over the rest of the planet.
    I think that the kind of self-absorption that we often 
project, or maybe even arrogance, is all a part of that, and 
that can be worked in a solid approach, a diplomatic approach 
to this problem.
    But in the end, as the Senator says, we're going to be the 
symbol of power and wealth and influence, and there's going to 
be resentment, no matter how effective our diplomatic approach 
is, so this is something we just simply have to deal with, have 
to live with, and prepare for, it seems to me.
    Mr. Shays. Has our hierarchy of threats that all of these 
establishments have identified, has it evolved too match this 
changed philosophy, this newfound globalized resentment that 
has developed at the close of the cold war? Are we prepared for 
the proper threats, both at home and abroad?
    Senator Rudman. Well, I think the answer is clearly no. Let 
me give you an anecdote of something that got all of our 
attention about 6 months ago. I really commend to you an 
article in ``Foreign Relations Magazine'' about a young Coast 
Guard commander who was doing a fellowship up there in New York 
who decided to look at the threat of weapons of mass 
destruction to the United States. I mean, it's stunning, and 
let me just give you in a paragraph what essentially the 
findings were.
    There are 55,000 containers that come off ships into the 
United States every day--55,000. A small fraction of them are 
opened at the port. Most of them go to their destination, be it 
St. Louis or Chicago, Dallas, Boston, whatever, on the West 
Cost, into the southwest or along the West Coast. Some of them 
aren't opened for a matter of months, I believe--am I correct, 
Chuck?
    General Boyd. Could be a month or two. Yes.
    Senator Rudman. Month or two. It doesn't take much 
imagination, with the technology available to so many people 
who ought not to have it, that the acquisition of a small 
amount of fissionable material put in the right kind of a 
design and placed on one of those carriers--I mean, the thought 
is horrendous, but it is real. It also goes to biological and 
chemical.
    So, although I am not here to comment on the proposal that 
is being debated about missile shield defense, if I wanted to 
set off a weapon of mass destruction in New York I think I 
probably wouldn't do it with something that had a return 
address on it.
    We had testimony from the intelligence community and from 
people looking at this problem, and we need more intelligence, 
but, most of all, we don't only need more prevention, but we 
have to understand how to respond.
    You may remember that former Secretary of Defense Bill 
Cohen, about a year-and-a-half ago--I believe it was before you 
came to Congress, Mr. Putnam, but it is worth getting a look 
at, in response to your question. Secretary Cohen wrote an 
article that essentially said, ``It's not a question of if, it 
is a question of when.'' I'm sure the Members of Congress here 
remember reading that. It was a very stunning article--it 
appeared in the ``Washington Post'' op-ed page--in which the 
Secretary of Defense said, ``We're going to have a horrible 
incident in this country over the next 10 to 15 years, sooner 
or later. We don't know. It's going to happen, and we're not 
prepared to deal with it.''
    You know, I was thinking, as we were developing this 
report, of the horrible events of Oklahoma City. Mr. Chairman 
and members of the committee, that was a horrible event. That 
was infinitesimal compared to what we're talking about, and it 
has to be addressed. It is a moral responsibility for this 
Congress to address this issue. You don't have to come up with 
our solution, but you have to come up with a solution.
    Mr. Shays. Thank you.
    Mr. Kucinich, and then we'll go to Mr. Gilman.
    Mr. Kucinich. Senator, again, welcome.
    Senator Rudman. Thank you.
    Mr. Kucinich. In your testimony you said, ``Perhaps most 
important, we are proposing to do all this in such a way as to 
guarantee the civil liberties we all hold dear.'' I had a 
chance to review the phase three report, and I may have missed 
the section, or maybe it wasn't included, but I didn't see any 
comprehensive statement in here of how civil liberties would be 
guaranteed in such a framework.
    Senator Rudman. On page 11, top paragraph, let me read you 
that paragraph so you don't have to look it up. ``Congress is 
perched, as well, for guaranteeing that homeland security is 
achieved within a framework of law that protects the civil 
liberties and privacy of American citizens. We are confident 
that the Government can enhance national security without 
compromising Constitutional principles. In order to guarantee 
this, we must plan ahead. In a major attack involving----''
    Mr. Kucinich. Senator, with all due respect, I did see 
that.
    Senator Rudman. All right. Fine.
    Mr. Kucinich. With all due respect, I did see that.
    Senator Rudman. What is your question? How do we do it?
    Mr. Kucinich. I'll go over it again.
    Senator Rudman. All right.
    Mr. Kucinich. You said that we're proposing to do this in 
such a way as to guarantee the civil liberties.
    Senator Rudman. Correct.
    Mr. Kucinich. How do you establish a national security 
apparatus in the United States, in effect implement a national 
security state, and simultaneously protect civil liberties? I 
think we'd all be interested to know----
    Senator Rudman. I'd be happy to answer the question.
    Mr. Kucinich [continuing]. How you would do that.
    Senator Rudman. You see, Congressman, that's a great 
question. The problem we were all concerned with was, without 
this kind of planning, if something happens in Cleveland it is 
going to be the military that is going to be there instantly, 
and you may have to even declare marshal law if there are 
enough casualties and enough destruction. You've not planned 
for it. You don't have interfaces between Federal and State 
government and city government which are already planned and in 
place with civilians in charge. That's what will happen today. 
That's what happens in the event of massive tornadoes or 
massive hurricanes along the Southeast Coast back about 10, 12 
years ago and more recently.
    What we say is, if you have a civilian in charge of this 
agency and you are planning and training in prevention is 
involved with setting up scenario planning with city and State 
governments across this country, then if something does happen 
you are in a position to have civilian control with the 
military assisting them.
    Now, the military has so-called ``posse comitatus'' 
restrictions, as well it should, but in times of marshal law, 
you know, those essentially aren't observed.
    Mr. Kucinich. So you are envisioning marshal law?
    Senator Rudman. I'm envisioning that there would be marshal 
law unless you had this agency in place. That's what we're--
absolutely.
    Mr. Kucinich. So a Governor doesn't have the ability to, in 
effect, declare an emergency? A mayor doesn't have that ability 
to declare an emergency?
    Senator Rudman. They certainly do, but they do not have the 
authority to declare marshal law on a national basis, I can 
assure you that.
    Mr. Kucinich. Local police departments don't have the 
ability to enforce law within a community?
    Senator Rudman. Congressman, as good as local police forces 
are--and I'm a former State Attorney General and I have a high 
regard for them--they could not possibly cope with the kind of 
thing we're talking about. They don't have enough resources, 
enough people. And, by the way, they may be the victims, 
themselves.
    Mr. Kucinich. And when we speak of homeland security, we're 
implying that we are not protected right now.
    Senator Rudman. We are not.
    Mr. Kucinich. There's $300 billion a year the American 
taxpayers pay for a Department of Defense, and billions more 
for State patrol and billions more for protection of their 
local police departments, and you're saying that, despite 
spending billions and billions and billions of dollars, we're 
still not protected. And so I would ask you, Senator, just as 
coming from Cleveland, OH, as you so kindly recognized, how 
could I convince my constituents that, in an environment where 
hundreds of billions of dollars are being spent and that's not 
enough, that they should spend more, particularly when their 
schools are not up to par, when people don't have decent health 
care, when they have roads and bridges falling apart. Please 
enlighten me, Senator.
    Senator Rudman. Sure. I'd be happy to.
    No. 1, we're not saying you have to spend more. These 
agencies spend quite a bit of money now, themselves, but we 
think that we're not getting the right bang for the buck.
    No. 2, with all due respect to your comments about national 
security, almost all of our expenditures for national security, 
up to now, at least, are for conventional warfare in a two 
major theater war scenario, which I expect will soon be done 
with, but that is the current plan. All the aircraft carriers, 
all the Army and Marine divisions, the entire Air Force, none 
of that is directed toward homeland security.
    The only thing that we know is that if something bad 
happens today the only organization in the United States, the 
only organization in the event of a weapon of mass destruction 
going off or being put in the water supply or what, the only 
people who could respond would be U.S. military. There is no 
one else. They have the transportation the communication, the 
medical supplies, they have it all. Unfortunately, it has not 
been coordinated in the way that it has to be, and we believe 
this agency, in its prevention and response missions, would do 
just that.
    Mr. Kucinich. I'd like to go back to something, Senator, 
and that is: how do we guarantee civil liberties in a national 
security state? I mean, we're really talking about a profound 
change in the way we view ourselves as a Nation. We're talking 
about a fortress America here. How do we guarantee people's 
basic Constitutional rights to privacy, to being able to freely 
associate with who they want, to be able to freely speak in the 
way that they want? How do we guarantee that within the 
framework of a bill that, frankly, its linguistic construction 
raises some chilling possibilities of something that is anti-
democratic.
    Senator Rudman. You know, we debated that and we don't 
think it does. We had people on our Commission such as former 
NBC correspondent Bud Dancy that was very concerned about that 
very issue, and we don't think our recommendation amounts to 
that at all.
    As a matter of fact, Congressman, I can almost guarantee 
you that the people of Cleveland, OH, wouldn't even know this 
agency existed except for those people who are police, fire, 
medical, who would be getting training from this agency and 
recommendations. No one would even know it existed because it 
has no interface with the community until something happens.
    Now, when something happens I would say to you, quite 
frankly, that if it was bad enough I suppose there could be 
some period of time where the Governor, the mayor, or the 
President might decide that they would have to suspend things--
for instance, if a nuclear weapon went off in a major American 
city. But we're not talking about any deprivation of civil 
liberty in normal circumstances.
    In almost all circumstances, including hurricanes and 
floods in this country, including in your own State, there have 
been occasions where the National Guard had to be called out to 
keep order and to suspend certain liberties until the situation 
could be simmered down to protect law-abiding citizens, and 
that is not part of our recommendation, that's just what 
happens.
    Mr. Kucinich. I think, Senator, it would be enlightening 
for this committee to be able to have some kind of proceedings 
of those debates that took place within your Commission over 
the issues and concerns about civil liberties.
    Senator Rudman. We would be happy to respond.
    Mr. Kucinich. I mean, I would be happy to take the 
Senator's word for it, but we could also perhaps learn on this 
committee about some of the concerns that were expressed, 
because I think that an appropriate forum would be this 
committee and the Congress to have a wide and open discussion 
with which perhaps our constituents could be involved in what 
the implications would be for the democracy of having such a 
structure in place, particularly since it would be, by your 
statement, invisible.
    Senator Rudman. Well, I would hope it would be, as FEMA is 
invisible to most of the residents of all of our States until 
something bad happens. When something bad happens they suddenly 
realize that something called ``FEMA'' they have heard of. And 
I must say I think that under former Director Witt they did a 
first-rate job.
    Mr. Kucinich. I think you would concur, though, that the 
broad scope of this homeland--the Homeland Security Act goes 
far beyond anything that encompasses the purpose of FEMA.
    Senator Rudman. Absolutely. It expands it, it gives 
coordination to it. It is heavy on prevention. It is heavy on 
intelligence gathering abroad, obviously, and to some extent 
domestically by the FBI. But all the people that do what they 
are supposed to do would continue to do the same thing, but 
there would be a lot more coordination and planning. Right now 
there have been a number of exercises around the country 
conducted by various organizations directing it toward a mass 
destruction weapon being imposed on a State or a city, but 
hardly enough.
    Mr. Kucinich. Senator, thank you.
    Senator Rudman. We will get to you, Congressman----
    Mr. Kucinich. What do you mean by that?
    Senator Rudman [continuing]. A summary--[laughter.]
    Senator Rudman. We will get--well, if you'd like to put an 
exclamation point after the first six words, that is your 
privilege. We will get to you, Congressman, a position paper 
that will summarize the debate and how we concluded what we 
concluded on the very issue of civil liberties that you are 
rightfully concerned about.
    Mr. Kucinich. I appreciate that, Senator.
    Senator Rudman. We'll get that.
    Mr. Kucinich. I certainly also appreciate your service to 
this country, as well as General Boyd's.
    General Boyd stated several times about this concept of 
managing resentment. Would you like to elaborate on that, 
General.
    I guess we're out of time right now. I'm sorry.
    Thank you, Mr. Chairman.
    Mr. Shays. Mr. Gilman, it is a privilege to have you here, 
and thank you for your patience.
    Mr. Gilman. Thank you, Mr. Chairman.
    I want to welcome Senator Rudman and General Boyd.
    I commend you, too, Mr. Chairman, for focusing your 
attention on this very critical problem, and I want to comment 
Senator Rudman and General Boyd for the report that they've 
issued focusing our country's attention on what has to be done. 
Apparently, there is no central entity at the moment and the 
fragmentation is abundant throughout the Government and nobody 
is truly prepared to take the preparations for avoiding 
terrorism in the first place and then have it properly 
addressed.
    In our International Relations Committee we focused a great 
deal of attention on the usual targets--our embassies abroad. 
You know, I was present when Admiral Lindman came before us 
many years ago. You were there, Senator Rudman.
    Senator Rudman. I served on that commission, Chairman 
Gilman.
    Mr. Gilman. And there you are. And he tried to focus 
attention on what we should be doing, and we reacted very 
belatedly, and still have yet to prepare the proper security of 
those posts abroad. Then Admiral Crowe, Ambassador Crowe, came 
forward reiterating it.
    Last year we tried to put some real money into the budget 
to try to move back the Embassy posts abroad--move them back 
from streets, move them back from danger areas. They say that 
every 10 feet means another floor you could save in the long 
run. Yet, we have been very reluctant to do these kind of 
things.
    So I hope that your Commission will continue to remind our 
Nation of what we should be doing to protect those agencies 
that we have abroad, and particularly our Embassies, which are 
a target that have often been addressed.
    I note that in your report you talk in part of prevention, 
as well as prosecution. We need better human intelligence, and 
that seems to have been a big problem over the years.
    CIA had a restriction on who they recruit for these kind of 
activities, and I hope that will be changed in the future so 
that we can have proper intelligence. That's three-quarters of 
the battle, if we have some advance information about what's 
happening in these terrorist organizations. And we have to find 
a way to breach those organizations to become involved with 
them.
    And then, too, you talk about the better coordination and 
that we have no coordination at the moment. It is a band-aid 
approach, a reaction approach, as we've had in so many other 
disasters, and I think that having your Home Security Agency is 
a sound method of bringing people together.
    Let me ask you what has been the attitude of the 
administration, the present administration, with regard to your 
proposal?
    Senator Rudman. Well, you know, they are in their first 100 
days and they've got a lot of things to do. Of course, there 
are five or six major chapters of this report with 
recommendations for DOD. We've had a major meeting with 
Secretary Rumsfeld, who has asked us on that aspect of it to 
work with them. They liked a number of our recommendations.
    For your personal interest, we had an excellent meeting 
with Secretary Powell, and, as a matter of fact, we were asked 
by the House Budget Committee to testify following General 
Powell 2 weeks ago on the State Department, which I think you 
would find that part of our report--knowing some of your public 
statements, I think you'd agree with virtually all of it. 
General Powell likes a good deal in that report, and they're 
moving toward it.
    As far as the President and the National Security Council, 
it is kind of interesting that our recommendation on the NSC--
and I'm sure it's not because we've said it, but, 
coincidentally, they have embodied our recommendation to make 
the NSC more of a coordinator and certainly not operational or 
a second State Department within the White House, which has 
been, I know, a concern of many people for a long time.
    So I would say the administration has responded well. We 
haven't got a specific response to this, but I know they're 
looking at it.
    Mr. Gilman. Is there specific legislation that you've 
proposed for the National Homeland Security Agency?
    Senator Rudman. We have 50 recommendations, and from those 
recommendations we thought the Congress ought to draft the 
legislation. We thought it would be presumptuous of us to draw 
a bill, as a Presidential commission.
    Mr. Gilman. And has anyone undertaken that, Senator, to 
incorporate----
    Senator Rudman. Mac Thornberry and Ike Skelton. 
Thornberry's bill tracks our recommendations very closely on 
homeland security, and Mr. Skelton also embodies much of it, 
but it is a bit different.
    As I said before you arrived here, Chairman Gilman, we are 
not saying that this is the only way to do it, but we are 
saying, ``Here is the problem. There's got to be a way. Here is 
our suggestion,'' and let the Congress work its will and do 
something to improve the current situation.
    Congressman Kucinich was talking about money, a very 
important subject. We are not talking about particularly 
expanding money, but when you look at these signs up here, the 
future speakers from all the departments they come from--I 
don't know if they are on both sides. I don't know whether you 
can see them from your side or not, but there are about 40 or 
42 of them. They spend a huge amount of money right now. We say 
it can be spent a lot better.
    Mr. Gilman. Let me ask you what's the response by the 
Intelligence Agency? Have you discussed this with Mr. Tevin?
    Senator Rudman. Absolutely, because I've had an ongoing 
relationship, because I still chair the President's Foreign 
Intelligence Advisory Board. They are very aware, as is the 
FBI.
    I might say--and I can't get into detail in this kind of a 
session, but I think that the intelligence community and the 
FBI has been doing a first-rate job on prevention--not enough, 
not good enough--very hard, though, to figure out what some guy 
in a tent in Afghanistan is thinking about doing to somebody 
who is living in New York unless you really have human 
intelligence, terrific signals intelligence, and all of these 
things.
    But I must say that it is a high priority of both the 
agency and the Bureau.
    Mr. Gilman. I'm pleased the Federal Bureau is now planning 
to create a police academy training unit in UAE, just as 
they've done successfully in Budapest, in South Africa. I think 
these can be extremely helpful.
    Senator Rudman. Our liaison relationships with these 
countries is probably the most valuable thing that we have in 
terms of understanding terrorism that has its origins overseas.
    Mr. Gilman. Well, thank you, Senator Rudman and General 
Boyd for being here today.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Lewis.
    Mr. Lewis of Kentucky. Thank you, Mr. Chairman.
    Senator Rudman and General Boyd, how did the Commission 
deal with the question of preparing for so-called ``low-
probability, high-consequence'' threats like mass casualties 
for biological weapons, chemical weapons?
    Senator Rudman. Under our proposal in the response section 
of that we believe that the model should be what has already 
been done in exercises carried out by DOD with local Guard 
units in local cities and counties and States in which you have 
scenario planning based on if this were to happen, which you 
refer to as low-probability but high-damage, high-impact 
events, that the medical services, the police services, the 
municipal services, the Office of the Mayor, the Governor, that 
everybody understands what you try to do, knowing that 
communications will be disrupted, key people will be disabled, 
but you put together a plan, and that is one of the major roles 
in the response side of the new agency.
    However, in order to be able to do that you need the 
prevention and the training, and you have to do it across a 
broad spectrum of these agencies, which is, unfortunately, done 
but rarely.
    Do you want to add to that, Chuck?
    General Boyd. I think the essence of--there are two things 
that I'd like to come back to, because I think they are 
absolutely critical. One is the notion of a national strategy. 
If this is not integrated in a national strategy, if it is a 
separate entity--an entity that is dealt with independently--it 
doesn't work the whole issue.
    And the second thing is, we need somebody in charge. 
There's an old saying that nothing concentrates the mind like 
the prospect of hanging. As a military guy, a lifetime military 
guy, I can tell you nothing concentrates your sense of 
responsibility like taking command, being placed in command--
somebody who is put in charge with authority, responsibility, 
accountability, and some capability to do his mission, and 
that's what we really call for--putting somebody in command at 
a sufficient level that he or she can deal with other 
counterparts in the executive branch on an equal footing.
    Senator Rudman. I would add one thing. The problem with the 
czar approach is that you've got all of these agencies that 
have very powerful heads, and now you've got somebody who is 
supposed to direct them. Well, they have no budget authority 
and no command authority, and that's why most of them had 
failed.
    General Boyd. If you do that and someone defines then 
someone to define the requirements, to refine the training, to 
be held accountable here in Congress, to come and report what 
they're doing or what they're not doing, I think that all of 
these loose ends that don't now get coordinated will be 
coordinated.
    With respect to the issue of civil liberties, let me just 
go back to that for a moment. I think Congressman Thornberry's 
proposed legislation calls for an IG function on this, to deal 
with this issue, and with reports back to the Congress on how 
we are doing with civil liberty. These are mechanisms that 
almost ensure that responsible person has to address such 
things as civil liberties or such things as medical 
preparedness. All of these things he or she will be accountable 
for.
    I think there is no other mechanism that I know of, other 
than putting somebody in charge and holding them accountable, 
to ensure success.
    Mr. Lewis of Kentucky. Is there any preparation at all 
being done at the local, State level today, or----
    General Boyd. Some.
    Mr. Lewis of Kentucky. Some?
    General Boyd. There has been some, but it has been 
sporadic, fragmented. But people certainly are trying, and 
these agencies are trying. Nothing that we say here this 
morning should be indicated as being critical of them. We are 
not.
    General Boyd. There is an important issue, an article in, I 
believe, the most issue of the National Journal, entitled, 
``Beyond the Blue Canaries,'' which deals with--and the Blue 
Canaries are the policemen. They are the first one in the 
chemical environment that are--you're going to find that know 
that there's a chemical attack going on. The allusion is to the 
canaries in the mine shafts of old.
    In that article, there is a description of the varying 
capabilities throughout the country, and it is a mixed bag. 
There are some communities in some States that are doing better 
than others with respect to this kind of preparation.
    What we are suggesting is that, with a central focus in a 
National Homeland Security Agency of this kind, with setting 
some standards and setting some priorities and a coherent 
avenue of resource provision to the States and assistance, that 
unevenness can even out across the Nation.
    Mr. Lewis of Kentucky. Thank you.
    Mr. Shays. Thank you, Mr. Lewis.
    One of the challenges I think we have, Senator--``we,`` you 
and this committee--is what do you say that you know to be the 
truth without frightening the hell out of people. But the fact 
is that we've had the Secretary of Defense say what needed to 
be said--it is not a matter of if there will be an attack, it's 
a matter of when. I really believe that. And that attack can be 
chemical, it can be biological, or it could be nuclear. So we 
know that to be the case, or believe it to be the case.
    In your report--I reacted a little differently than my 
colleague, the ranking member, and I loved the synergy of the 
tough questions that were asked of you, but I basically read it 
from the standpoint of if we don't do something you will end up 
taking away more of American's privileges.
    When Abraham Lincoln had to basically sneak his way into 
D.C. because he didn't know who was friend or foe--was Maryland 
going to be on what side, or was Virginia going to be on what 
side, who was friend, who was foe--and there were tremendous 
suspensions to our liberties. That's not something we, as 
Americans, want to see happen, but they had to happen. But they 
happened because of the disaster.
    It's interesting. If we could have prepared for it 
differently, would we have been able to not have seen those 
suspensions take place of our civil liberties.
    What I'd love to know to start with is: where do you draw 
the line of telling people what you believe to be the truth 
without overdramatizing what you think may happen.
    Senator Rudman. Well, that's probably the toughest question 
of all, and I will answer it the best I can, because I have 
been asked to speak about this report at various places around 
the country, and I have, and I have to be careful because you 
don't want, you know, people running out of the auditorium, 
Congressman Shays, for the bomb shelters.
    Essentially I say this: that the U.S. Government spends a 
great deal of money every year planning for a series of 
eventualities of foreign threats to our national security. 
Anyone who serves on the International Relations Committee or 
what we call in the Senate the Armed Services Committee or the 
Intelligence Committee is well aware in detail of all of the 
plans that we have for a whole line of contingencies that could 
happen in the Middle East, Asia, Taiwan. The military has 
catalogs of these, and that was one of Chuck Boyd's assignments 
many years ago in that planning function with the Joint Chiefs.
    The one thing we haven't done, I tell people, is to do the 
same kind of scenario planning for our own defense.
    In a fairly mild way, I try to tell people there are a lot 
of folks out there who don't like us. The people in Oklahoma 
City happened to be Americans, but they didn't like us or 
themselves, evidently. But we have what happened in New York, 
which could have been a terrible disaster, even more so than it 
was, with the Twin Towers in New York if other types of weapons 
had been used. We've had other threats coming across our 
border, as you'll recall the first of the year a year ago up in 
the Pacific northwest.
    All of these people have a desire to inflict punishment on 
us as citizens, and all we're asking, I tell people, is that we 
put the same level of planning behind that threat as we do to a 
threat that might happen in southeast Asia or in the Middle 
East or who knows where. And I think that is probably the best 
way to explain it to people. People understand that.
    And, by the way, Congressman Shays, Mr. Chairman, people do 
understand this threat. People have thought about it.
    Mr. Shays. I make the assumption--yes, General Boyd?
    General Boyd. Could I just add one thing, sir? One of the 
things that we've said in relation to dealing with resentment--
but I think it applies really to your question, too--is tone 
matters. The President is the one, above all others, who must 
articulate what the threat is to the United States with respect 
to the homeland, but the tone that he uses is going to be 
critical.
    You can panic the people or you can be honest with them and 
forthright with them and, at the same time, be calm and 
dispassionate about the nature of it, and a call for taking 
those prudent kind of consolidating moves that we are calling 
for.
    This is not--we don't call for a huge new expenditure of 
funds. We call for a rationalization of capabilities we already 
have. We don't create new agencies. We don't create any new big 
bureaucracies. We simply rearrange the furniture in such a way 
that it has coherency and makes sense. It is FEMA on steroids.
    Mr. Shays. I want to ask both of you this question: do you 
think that--I want to ask it very bluntly--do you believe that 
this country will face a terrorist attack?
    Senator Rudman. Frankly, I think that it would be 
miraculous if in the next 10 years it didn't happen.
    Mr. Shays. All right, sir. General Boyd.
    General Boyd. I believe that it is a very high threat.
    Mr. Shays. All right.
    General Boyd. Yes, sir, I believe that.
    Mr. Shays. Now, I found myself embarrassed that I laughed 
at your comment, because I've tried to find a way to express 
it, and that was--when you were talking about missile defense, 
which I think we need to move forward on for all the reasons 
that have been documented on a system that works, but I fear 
more the possibility of a terrorist threat from nuclear weapon 
put in a shipment that is in this United States.
    And, by the way, they are usually opened within 2 months, 
but if this is a shipment that someone is looking to protect 
and send a particular place, they may find a way to have it not 
opened for years. It is just stockpiled, ready to use when 
someone wants to use it and detonate it, and it could be a 
nuclear device.
    But I found myself laughing and being uncomfortable when 
you made the comment ``something without a return address.'' 
That's really the reason I fear it.
    Senator Rudman. Well, that's right.
    Mr. Shays. Yes.
    Senator Rudman. That is exactly right, and if you will take 
the time to read this article, which is fairly short, it is a 
wonderful article, wonderfully researched by a brilliant young 
Coast Guard commander who writes about this very threat. And 
there are a lot of ways to do it. Libya could have a ship come 
to the 10-mile limit and then just cruise into New York Harbor. 
I mean, there are all sorts of things that can happen, and that 
is why intelligence, as somebody in the panel talked about 
earlier, is so vital to know what's going on and to be able to 
trace it. But, you know, unfortunately, Mr. Chairman, you know, 
in this business almost perfect isn't good enough.
    Mr. Shays. This gets me to this issue of why--so one reason 
is that it doesn't have a return address. Another is that 
certain countries may not have the capability to respond except 
by a terrorist attack.
    Senator Rudman. Correct.
    Mr. Shays. And in the process of our doing work both at 
home and abroad on this issue--and it is our key concern of 
this committee, the terrorist threat--in meeting with the 
general in France who is in charge of their chemical, nuclear, 
and biological response, he said, ``You Americans don't seem to 
understand--'' in so many words he said this--``that you are 
such a world power that the only way a force can get to you is 
through a terrorism attack.'' And he used the word 
``resentment.'' He said, ``You are resented throughout the 
world, and this is the way they're going to get you.''
    So now it does raise another question, maybe a little 
beyond what you've recommended, but I'd like to know your 
response. It does seem to suggest that, as important as our 
Defense Department is, that our State Department is 
extraordinarily important and may be helping us minimize the 
resentment and then isolating it to certain areas.
    I'm interested to know, did you get into this? How do you 
manage----
    Senator Rudman. We sure did.
    Mr. Shays [continuing]. The resentment?
    Senator Rudman. If you will read whatever chapter it is in 
the report on the State Department, we make that very point. I 
referred to it in my comments here this morning about the 
statement. There are two things the State Department does which 
people don't always appreciate outside of Government. I'm sure 
you do here. No. 1, of course, in terms of advising the 
President on American foreign policy and its result in a 
variety of ways, including resentment it may cause; but, two, 
and equally important in my view, is that the State Department 
has a very important intelligence role to play. Intelligence is 
not gathered necessarily with people wearing long rain coats 
and dark fedoras meeting on street corners in Budapest. It is 
quite often collected by Ambassadors, charges, other people 
from the mission meeting counterparts from various countries at 
a lot of events who hear things, and when you put them all into 
a matrix they suddenly tell a story.
    The State Department's INR unit has done very good work in 
the intelligence area, and that's one of the reasons we 
recommend that there be reorganization as well as more funding 
for the department.
    Mr. Shays. That would raise the question--and then I'm 
going to call on Mr. Kucinich--but that would raise the 
question that we are potentially put at a disadvantage when we 
don't have relations with, say, Iran, or even with Iraq, 
frankly. We don't have people there. We begin to lose the 
language, we begin to lose contacts. It does make that kind of 
suggestion.
    Obviously, there's value in having people in all parts of 
the world.
    Senator Rudman. There is no question that is a judgment 
that Presidents have to make. If you don't have people in a 
particular country, the amount of intelligence you gather in a 
variety of ways falls off very sharply.
    Mr. Shays. I'd like to come back for a second round, but, 
Mr. Kucinich, you have the floor.
    Mr. Kucinich. Thank you very much, Mr. Chairman, Senator 
Rudman, and General Boyd.
    As I'm listening to this discussion here, it really appears 
that the discussion of a Homeland Security Act is not only 
about our homeland, but it is really about America's mission in 
the world, as well, about how we see ourselves as a Nation and 
how we conduct our foreign policy.
    I would hope that any discussions that take place about a 
Homeland Security Act would be within the context of those 
essential pillars of principle.
    For example, this discussion, whether we like it or not, is 
undeniably drenched in fear.
    Senator Rudman. Is what?
    Mr. Kucinich. Undeniably drenched in fear. I remember a 
President who once told the American people, ``We have nothing 
to fear but fear, itself.'' I also know that we have some 
steps, positive and constructive steps, apart from a Homeland 
Security Act which could be taken to lessen tensions in the 
world. As a matter of fact, the Congress has spent many years 
working on such steps long before I got here, and they 
include--and I know the Senator has probably been involved in 
many of these--a nonproliferation treaty, an anti-ballistic 
missile treaty, a comprehensive test ban treaty, STAR-II, STAR-
III, and the entire panoply of arms control initiatives which 
have, at their kernel, a belief that people can back away from 
the abyss, can learn to cooperate, and can learn to live 
together.
    At this very moment there are proposals to build down the 
Russian nuclear stockpile. Russia has asked for help in getting 
rid of fissionable material. Russia has asked for help in doing 
something about their nuclear scientists who are out of work. 
Russia has asked for help in disposing of 40,000 tons of 
chemical weapons, all of which represent a challenge for the 
security not only of their Nation but for potential security 
problems abroad.
    The chairman pointed out in his discussion perhaps an 
opportune moment exists to review our policies with Iraq, Iran. 
The administration recently announced its intention to move 
forward with the sale of missiles to Taiwan, which puts us in a 
particularly difficult position with China.
    I think that when we talk about homeland security, which 
encompasses a fortress America or national security state, it 
is helpful to broaden our vision and to say, ``What is our role 
in the world that we are creating circumstances that could 
cause resentment?'' Because I think that if we do not inspect 
cause and effect, we're missing out on an opportunity to go 
beyond the analytical framework which you have spent a good 
deal of time working on, and I think we are all grateful for 
your doing that because it helps us focus on exactly where are 
we at at this moment with respect to our condition of a Nation 
which is said to be the object of resentment in the world.
    I think another question that might be asked that would be 
appropriate is: if we are so resented as a Nation, as the 
testimony has said, then are there other steps that America 
could take other than becoming a fortress that would help to 
lessen its vulnerability and this portrait of vulnerability 
which is being drawn here.
    General Boyd.
    Senator Rudman. Well, let me see if I can address two or 
three of the things in that question.
    First, it was not our mission----
    Mr. Shays. General, may I ask you a question? You are a 
four-star? They told me Congressmen have four stars, so what do 
you do when both are four stars?
    General Boyd. He has got five.
    Mr. Shays. OK. [Laughter.]
    Mr. Kucinich. I directed the question to General Boyd, 
though. If I have five stars, then I want General Boyd----
    Senator Rudman. Oh, I didn't know you directed it to 
General Boyd. You go right ahead and answer it, General Boyd, 
and I'll comment after you answer.
    Mr. Kucinich. Thank you.
    General Boyd. A couple of points maybe I think that might 
be useful.
    First of all, I think it is really important to recognize 
we've never suggested for a moment that we ought to develop a 
fortress America or a national security state. What we have 
suggested is that we rearrange some of the capabilities we have 
in a coherent way to address a problem that seems not to be 
well addressed.
    But I think the Commission goes in exactly the direction 
that you are suggesting, with respect to the first order of 
dealing with this problem, to deal with it in a diplomatic way.
    You'll notice on page 12, right at the top, under the first 
pillar of a national security strategy, prevention, we say 
that, most broadly, the first instrument is U.S. diplomacy. We 
go into addressing grievances in the world on the diplomatic 
front, to begin with.
    Protecting us at home is a global mission, and all of the 
elements that you've talked about in preventing the 
proliferations of weapons of mass destruction, arms control 
measures, diplomatic measures, conflict prevention, etc., all 
are elements of a strategy that would deal with homeland 
security at the end of the day.
    I think we are in complete agreement with what you are 
saying, and I think it is all right here in our text.
    Senator Rudman. I want to----
    Mr. Kucinich. Yes, Senator, please, if I may add, we are in 
complete agreement that a structure exists currently apart from 
this proposal. I agree with you on that.
    Senator.
    Senator Rudman. You have to understand our charter from the 
Congress. Our charter from the Congress was, ``Take a look at 
U.S. national security in its broadest sense in the 21st 
century. Don't recommend, you know, new foreign policy for us. 
Don't tell us what weapon systems we ought to buy. But give us 
a broad brush of some of the things you think are wrong and how 
to correct them.
    Now, I want to just make one point, Congressman, because I 
think it is a very important point. And you're right, I was 
involved in all of these things that you spoke about--the SALT 
treaties, the ABM treaties, the anti-proliferation treaties, 
and many more. But those were all dealing essentially with the 
Soviet Union. We were concerned about conventional warfare. We 
had a policy for years which I never like the name of, but I 
guess it worked--we're all here. It was called ``mutual assured 
destruction,'' and it went on the basis that the Soviets 
weren't about to launch at us because they knew the result 
would be a launch at them. We'd all be gone, but that wouldn't 
be very good unless you're dealing with madmen.
    So all of these are directed at what we assume would be 
rational governments that were identifiable. What we're talking 
about are irrational governments and individuals and 
organizations that cannot be identified. That's where terrorism 
comes from, unless you can pin it to a particular country like 
Libya and a particular incident.
    So I agree with General Boyd's response to your comments. I 
agree with those. But I want to point out that all of these 
treaties are good in terms of preventing the American people 
from having inflicted upon them conventional nuclear or 
chemical warfare. They are not good for a wit, to use an old 
New Hampshire term, when it comes to dealing with the Osama Ben 
Ladens of this world. He doesn't care about the bomb 
proliferation treaty. If he could buy some Ukrainian-enriched 
uranium and get a Russian scientist to bolt it all together, 
believe me, he would do it.
    Mr. Kucinich. I also remember a New Hampshire term, I think 
it is ``Live Free or Die.''
    Senator Rudman. That's correct.
    Mr. Kucinich. And I just wonder if, in making this 
transition from a world of mutually assured destruction, which 
we've----
    Senator Rudman. It's still there.
    Mr. Kucinich [continuing]. Had a whole system of arms 
agreements to back us away from that nuclear abyss, that we 
don't get to a condition where we effectively chip away at 
basic civil liberties and go from MAD to SAD, self-assured 
destruction.
    Senator Rudman. Right.
    Mr. Kucinich. And so, I mean, that, again, I know, Senator, 
coming from New Hampshire--and it is good that you are on that 
committee, because I know that's something you are sensitive 
to. I'm from Ohio and I'm just as sensitive to it.
    I have a question which kind of fits this into a budget 
framework, and perhaps Senator could help me with this. Would 
the director of the new Homeland Security Agency have budgetary 
authority over other agencies? In other words, could the 
director tell Secretary Powell or Secretary Rumsfeld to change 
their budget priorities?
    Senator Rudman. Absolutely not.
    Mr. Kucinich. Well, the----
    Senator Rudman. The only place where that exists now in any 
way is between the CIA and the Defense Department. That is more 
advisory than mandatory.
    Mr. Kucinich. Right. Well----
    Senator Rudman. That would not work.
    Mr. Kucinich. That's what I assumed. So the next question 
is: if that's the case, what else remains here but a domestic 
national security apparatus?
    Senator Rudman. Well, that's exactly what exists; however, 
the job of the President and the national security advisor is 
to coordinate these agencies, both domestic and overseas.
    All of these little blocks out here on this table have some 
little piece of this. Now, obviously, we're not talking about 
dissolving any of these agencies--the FBI, the CIA, FEMA, 
Justice, State. What we are saying is that those that have 
roles like Justice and State will keep them, but all these 
other agencies that only have a piece of the action will be in 
a central unit that will be run by a civilian director who will 
have to coordinate, obviously, with the CIA, the DOD, the State 
Department, but will be a far easier job of coordination 
because it will be down from 45 to probably around 5.
    Mr. Kucinich. I just want to add this, Senator. I know we 
are moving on. Again, I want to thank Senator Rudman and 
General Boyd for appearing today. This is an important subject 
and it requires extensive discussion and questions, and I 
appreciate your participation in this.
    One final note. As somebody who has served as a local 
official--as a councilman and as a mayor of a city--I have a 
lot of confidence that perhaps there might be a way of 
strengthening security through using local authorities. I think 
our local police are well trained and they have the ability to 
respond to crises that come up, and I think, in democratic 
theory, the idea of municipal police organizations may, in the 
long run, be able to sustain any concerns about threats to 
civil liberties. I want to make sure we aren't in a situation 
where we are being told that we're gaining our liberties by 
parting with some of them.
    Thank you, Mr. Chairman.
    Senator Rudman. Mr. Chairman, could I just say one brief 
thing to the Congressman?
    Mr. Shays. Sure.
    Senator Rudman. You know, your concerns are properly held. 
We have spent a lot of time on them, and one of the things we 
recommend is one of the things that isn't happening that will 
happen is the using of local resources, but they can't be used 
if they are not trained and coordinated and equipped. In many 
cases they don't have the funding--as a mayor you would know--
for the kind of equipment they need.
    And let me point out that one of our recommendations that 
has been vastly misunderstood is we talk about forward 
deployment of U.S. forces. The U.S. National Guard is forward 
deployed in this country, and, in the event of the kind of a 
holocaust we're talking about, they are the best people to aid 
local authorities in their States, as they do now. Some of them 
have thought that we were recommending--who didn't read the 
report--that be their primary mission. We say it should be a 
secondary mission. Their primary mission is the one to support 
the regular forces in time of national emergency, particularly 
in times of war.
    Mr. Shays. Thank you, Senator.
    You have the floor for 10 minutes.
    Mr. Gilman. Thank you, Mr. Chairman.
    Just one brief question of Senator Rudman and General Boyd. 
The Conference Committee report of 1998 in the Appropriations 
Act for the Departments of Commerce, Justice, State, Judiciary, 
and related agency required the Department of Justice to issue 
a report, a 5-year plan that was mandated at that time by the 
Congress, how to deal with terrorism.
    Congress intended the plan to serve as a baseline for the 
coordination of a national strategy and operational 
capabilities to combat terrorism.
    Now, did you examine that report, either Senator Rudman or 
General Boyd?
    Senator Rudman. Well, we looked at a lot of reports. I'm 
not sure that one has been published yet. That was authorized 
in, what, 1998?
    Mr. Gilman. It was authorized in 1998, and in December 1998 
the Department issued the Attorney General's 5-year plan.
    Senator Rudman. We've seen that, but I think there's 
something else that was supposed to be produced, as well, and 
I'm not sure that--I'm confused about that. I have seen that.
    Mr. Gilman. It is a classified plan.
    Senator Rudman. I have seen that.
    Mr. Gilman. And what are your thoughts about that?
    Senator Rudman. It takes a narrow--it takes the approach 
you would expect them to approach, considering who they are, 
Justice. It is their counter-intelligence plan and it is their 
view of coordination of local agencies.
    I did not see that here. I saw that in another hat that I 
wear. I'm well aware of it. But it does not have the breadth of 
the report that we have submitted. It wasn't supposed to.
    Mr. Gilman. Thank you very much. And thank you, Mr. 
Chairman.
    Mr. Shays. I thank you, Mr. Chairman.
    We made reference to a particular article by Sydney 
Freedberg, Jr., entitled, ``Beyond the Blue Canaries.'' I'm 
going to put it on the record, without objection, and I'm just 
going to read the first paragraph and a half.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5970.048
    
    [GRAPHIC] [TIFF OMITTED] T5970.049
    
    [GRAPHIC] [TIFF OMITTED] T5970.050
    
    [GRAPHIC] [TIFF OMITTED] T5970.051
    
    [GRAPHIC] [TIFF OMITTED] T5970.052
    
    [GRAPHIC] [TIFF OMITTED] T5970.053
    
    [GRAPHIC] [TIFF OMITTED] T5970.054
    
    [GRAPHIC] [TIFF OMITTED] T5970.055
    
    Mr. Shays. It starts out,

    When you walk into clouds of poisonous gas for a living, it 
helps to have a sense of humor, even a morbid one. That's why 
fire department hazardous materials specialists often call 
their police colleagues ``blue canaries.'' It is a reference to 
the songbirds that old-time miners took with them underground 
as living or dying indicators of bad air in the shafts. The 
joke goes like this, ``There's a policeman down there. He 
doesn't look like he's doing too well. I guess that's not a 
safe area,'' explained John Eversole, chief of special 
functions for the Chicago Fire Department.
    In their oxygen masks and all-enclosing plastic suits, 
``hazmat'' specialists such as Eversole can approach industrial 
spills with confidence--and they do, dozens of times a day, all 
across the country. Fortunately, so far, they have not had to 
don those suits in response to some terrorist group that has 
doused an American city, subway, or airport with lethal 
chemical weapons.

    What we did in our District is we invited a response team 
to come to the District and act out a scenario where an Amtrak 
train had encountered a derailment, and the police went in, and 
they were the first responders, and they didn't come out alive 
because of the chemicals.
    We had about 40 agencies--some Federal, but we had the 
local police, we had the State police, we had the National 
Guard, who were the response team, and it was a fascinating 
experience to see how everybody would coordinate their 
activity.
    I mention that because we focus primarily on the national 
response, but we have three levels of government, and they 
could put up charts, not maybe as complex as this but somewhat 
as complex.
    So I envision your recommendation is that this homeland 
office would--and I don't ever see it as a fortress America, 
but this homeland office would also work, what, to coordinate 
this and the response? Maybe you could explain, Senator.
    Senator Rudman. Yes, it would. One of its primary functions 
is to work with localities, municipalities, counties, States, 
so if something went wrong then there would be a plan, people 
would know who did what and when and where in terms of what if 
the local hospital becomes disabled. What if the local police 
department is disabled? What if the local fire department is 
disabled? What if the communications network goes down? What do 
you do? And that's what we ought to be talking about.
    Mr. Shays. Would it also get involved--I'm looking at one 
of the charts that you can't see because it is closest to me, 
but it says, ``Department of Agriculture.'' I'm just thinking, 
``Now, what would the Department of Agriculture do,'' and then 
you have a real, live example of the civil liberties of farmers 
in Great Britain who are seeing their personal property 
destroyed against their wishes, in some cases, because of foot-
in-mouth disease.
    Now, a terrorism could simply do what, General Boyd, as it 
relates to that?
    General Boyd. The proliferation of disease, with biological 
warfare in animals as well as human beings. I mean, there is 
almost every aspect of Government has some piece of this where 
potentially it has involvement. But, again, the point that you 
made and the point that certainly we've made in our report is 
the coordination of all of that in an effective, coherent way 
just doesn't get accomplished.
    Mr. Shays. We're going to shortly get on to the next panel, 
but let me ask this question. We obviously have a deterrent. We 
want to prevent and we want to protect the public from a 
terrorism attack. That is obviously our first interest. But 
obviously we then have a response to an attack. It can be 
basically disarming a nuclear weapon. Obviously, that is 
something that we are prepared to do very quickly. But take any 
of the three areas of mass destruction, you have communications 
problems, you have health problems, you have the property, the 
fire, the police, and so on. You have the hospitals. But you 
also want to solve the crime, because we want to hold people 
accountable for what they may have done. It relates to this 
issue here. My biggest interest, obviously, is to prevent, and 
yours, as well, and to protect.
    In the process of your doing your research, only the 
intelligence allows us to sift through hosts of vulnerabilities 
to distinguished the real threats. What was the Commission's 
view of the currency and reliability of U.S. threat assessment? 
And how could it be better?
    Senator Rudman. Well, I'll be happy to answer that, as I 
answered, I believe, before to Chairman Gilman. I think that 
there has been a vast improvement in the human intelligence 
aspects of the work of the CIA overseas and the FBI here within 
this country in terms of identifying threats, not only against 
cities and citizens but against individuals, such as the 
President. Having said that, it is the most difficult, because 
unless you are 100 percent you lose.
    So I would add to your comment, Mr. Chairman, that the 
response be planned meticulously so every place in this country 
knows how it would respond, and a good place to look--and your 
staff can get it for you very easily--is get all of the 
Japanese Government's reports and all the publicly available 
information on the attacks of deadly gas in the Tokyo subway 
system by a terrorist group several years ago. We've looked at 
all that and the U.S. intelligence community has all that. It's 
all available.
    Here was a city with a fire department pretty well 
organized dealing with a mass of people in such a small area, 
and look at the confusion that resulted and the problems that 
existed. And we're talking about a fairly minor attack in terms 
of the number of people affected and the number of stations 
that were affected. We've got to look at that. It will help to 
answer your question about response.
    Mr. Shays. Thank you. But your bottom-line point is that 
you have a good amount of confidence in our capabilities?
    Senator Rudman. I do. Unfortunately, I want to stress you 
can't have 100 percent confidence. You would be a fool to. And, 
unfortunately, in this business just one slips through--and my 
greatest concern, incidentally--personal opinion, not in the 
report, but based on a lot of work that I have done--I am more 
concerned about chemical and biological right now than I am 
about nuclear.
    Mr. Shays. OK.
    Senator Rudman. I think it is a serious threat, easily 
deployed, and hard to deal with.
    Mr. Shays. Let me conclude this just asking if either of 
you would like to ask yourself a question that you were 
prepared to answer.
    Senator Rudman. I think you've asked them all.
    General Boyd. You've asked the best ones.
    Mr. Shays. OK. Is there any final comment that either of 
you would like to make?
    Senator Rudman. My only comment would be that, to the 
extent that Members of the House and Senate recognize the 
seriousness of this problem and recognize that we're dealing 
with, you know, missile defense and we're dealing with a lot of 
other issues which we should be dealing with, this should be 
dealt with. This is a major threat to the American people. I'm 
not saying it is imminent. We have no such intelligence. But it 
is a major threat.
    If you look at what happened to those wonderful, young 
American soldiers on the U.S.S. Cole, to the Air Force men and 
women in Saudi, and you just amplify that a bit, you'll 
understand what we're talking about.
    Mr. Shays. I'd like to thank both of you and also thank our 
panel to come for their patience, but this has been very 
interesting, very helpful, and we'll look forward to continued 
contact with both of you.
    Senator Rudman. We'll cooperate with you in every way we 
can. And, Congressman Kucinich, we will get an answer to you on 
the specific question you asked and how we address that issue.
    Mr. Kucinich. Thank you.
    Senator Rudman. Thank you.
    Mr. Shays. Thank you, gentlemen.
    At this time we will call our second and last panel, Dr. 
Bruce Hoffman, director, Washington Office, RAND Corp.; General 
James Clapper, vice chairman, Advisory Panel to Assess the 
Domestic Response Capabilities for Terrorism Involving Weapons 
of Mass Destruction; accompanied by Michael Wermuth, project 
director; and Mr. Frank Cilluffo, chairman, Report on Combating 
Chemical, Biological, Radiological, and Nuclear Terrorism, 
Center for Strategic and International Studies.
    Do we have anyone else that may be joining us, as well? Is 
that it? Is there anyone else any of the four of you might ask 
to respond? We'll ask them to stand as we swear them in.
    I would invite the four of you to stand, and we'll swear 
you in. Raise your right hands, please.
    [Witnesses sworn.]
    Mr. Shays. Thank you very much. We'll note for the record 
all four have responded in the affirmative.
    It is possible, gentlemen, that I might be out of here 
before 12 for just a few minutes because I need to testify 
before the Appropriations Committee and they adjourn at 12. I 
will come back, and it's possible I'll still be here. We'll 
see. But don't take offense if I all of the sudden take off 
here.
    If you could go in the order I called you, we'll go first 
with--well, I guess we'll just go right down the line here, OK?
    Mr. Wermuth, my understanding is you will not have a 
statement but respond to questions; is that correct?
    Mr. Wermuth. That's correct, Mr. Chairman.
    Mr. Shays. OK. So, Dr. Hoffman, thank you for being here. 
We'll take the clock 5 minutes. We'll roll it over and hope 
that you can be concluded before we get to the 10; 5 minutes, 
and then we'll roll it over.
    We have sworn in everyone.
    OK. Thank you.
    Dr. Hoffman.

STATEMENTS OF BRUCE HOFFMAN, DIRECTOR, WASHINGTON OFFICE, RAND 
CORP.; JAMES CLAPPER, JR., LIEUTENANT GENERAL, USAF (RET), VICE 
   CHAIRMAN, ADVISORY PANEL TO ASSESS THE DOMESTIC RESPONSE 
     CAPABILITIES FOR TERRORISM INVOLVING WEAPONS OF MASS 
DESTRUCTION, ACCOMPANIED BY MICHAEL WERMUTH, PROJECT DIRECTOR; 
  AND FRANK CILLUFFO, CHAIRMAN, REPORT ON COMBATING CHEMICAL, 
  BIOLOGICAL, RADIOLOGICAL, AND NUCLEAR TERRORISM, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Hoffman. Thank you very much, Mr. Chairman, 
distinguished members of the subcommittee, for this opportunity 
to testify.
    Clearly, much has been done in recent years to ensure that 
America is prepared to counter the threat of terrorism; yet, 
despite the many new legislative and programmatic initiatives, 
significant budgetary increases, and the intense Governmental 
concern that these activities evince, America's capabilities to 
defend against terrorism and to preempt and to respond to 
terrorist attacks arguably still remain inchoate and unfocused.
    As last November's tragic attack on the U.S.S. Cole 
demonstrated, America remains vulnerable to terrorism overseas. 
Indeed, within the United States it is by no means certain 6 
years later that we are capable of responding to an Oklahoma 
City type incident.
    Today, however, the question is no longer one of more 
attention, bigger budgets, and increased personnel, but rather 
of greater focus, of better appreciation of the problem, a 
firmer understanding of the threat, and the development of a 
comprehensive national strategy. My testimony this morning will 
discuss how the absence of such a strategy has hindered 
American counterterrorism efforts by focusing on the critical 
importance of threat assessments in the development of a 
national strategy.
    The title of this hearing, ``Combating Terrorism: In Search 
of a National Strategy,'' is particularly apt. Notwithstanding 
many accomplishments that we've had in building a 
counterterrorism policy, it is still conspicuous that the 
United States lacks an over-arching strategy to address this 
problem. This is something that on numerous occasions, 
including before this subcommittee, the Gilmore Commission and 
its representative, its vice chairman, General Clapper, has 
called attention to.
    What I would ask is that the articulation and development 
of a comprehensive strategy is not merely an intellectual 
exercise; rather, it is the foundation of any effective 
counterterrorism policy.
    Indeed, the failure to develop such a strategy has 
undermined and forwarded the counterterrorist efforts of many 
other democratic countries throughout the years, producing 
ephemeral if not nugatory effects that in some instances have 
proven counterproductive in the long run. Indeed, this was one 
of the key findings of a 1992 RAND study, which I'd like to 
enter the executive summary of four pages into the record but 
leave a copy of the report for the subcommittee staff to 
consult at their leisure.
    Using select historical case studies of close U.S. allies, 
such as the United Kingdom, West Germany, and Italy, this was 
precisely the conclusion that we had reached.
    Accordingly, the continued absence of such a strategy 
threatens to negate the progress we have achieved thus far in 
countering the threat of terrorism.
    A critical prerequisite in framing such a strategy is the 
tasking of a comprehensive net assessment of the terrorist 
threat, both foreign and domestic. Indeed, this is something, 
as well, that numerous witnesses before this subcommittee from 
the General Accounting Office, John Parkin from the Monterey 
Institute have previously called attention to. They have cited 
that there has been no net assessment for at least the last 6 
years, and also that no means exists to conduct such an 
assessment of the terrorist threat within the United States, 
itself.
    Equally as problematic, it is now nearly a decade since the 
last NIE--national intelligence estimate--on terrorism, a 
prospective, forward-looking effort to predict and participate 
future trends in terrorism that was undertaken by the 
intelligence community. Admittedly, a new NIE on terrorism is 
currently being prepared as part of a larger process viewing 
all threats against the United States.
    But let us ask, given the profound changes we have seen in 
the character, nature, identity, and motivations of the 
perpetrators of terrorism within the past years, one would 
argue that such an estimate is long overdue.
    Certainly, the Global Trends 2015 effort undertaken by the 
National Intelligence Council last year was a positive step 
forward in this direction; however, at the same time, at least 
in the published, unclassified version of that report, little 
attention was paid to terrorism.
    The danger of not undertaking such assessments and 
constantly revisiting previous assessments is that we risk 
remaining locked in a mindset that has become antiquated, if 
not anachronistic. Indeed, right now we very much view 
terrorism through a prism locked in the 1995-95 mindset, when 
some of the key or pivotal terrorist incidents of that 
particular period--some that were discussed by Senator Rudman 
and General Boyd this morning, the 1995 attack on the Tokyo 
subway and the bombing a month later of the Oklahoma City 
bombing--have framed our perceptions of understanding of the 
terrorist problems.
    Now, those perceptions and that understanding may still be 
accurate, may still be correct, but, without constantly going 
back and asking and applying them to current developments in 
terrorism, we don't know that. Let me give you one example.
    At the time and in my written testimony I refer to several 
statements made by directors of Central Intelligence that said 
in the mid 1990's we faced a worsening terrorist problem. The 
number of terrorist incidents was increasing. Terrorism was 
becoming more lethal. Therefore, this argument was used to 
present a framework that terrorism involving weapons of mass 
destruction had not just become possible, probable, or even 
likely, but that it was inevitable, imminent, and even certain.
    This may well be the case, but at the same time, though, by 
not taking advantage of the long or unfolding of trends, we may 
miss the point.
    For example, lethality in terrorism, in fact, at least as 
targeted against Americans, declined rather than increased 
throughout the 1990's. For example, overseas six times as many 
Americans were killed by terrorists in the 1980's as in the 
1990's. On average, international acts of terrorism that 
targeted Americans in the 1980's killed, again, on average, 16 
Americans per attack; in the 1990's, that average was 3.
    The situation is not all that different domestically, 
either. Nearly eight times more terrorist incidents, according 
to FBI statistics, were recorded in the 1980's as compared to 
the 1990's. Admittedly, the death rate in the United States was 
greater--176 persons were killed by terrorists in America 
during the 1990's, compared to 26 in the 1980's. But, at the 
same time, viewed from a slightly different perspective, 95 
percent of that total come from one single incident--the 
tragic, heinous bombing of the Alfred P. Murrah Building in 
Oklahoma City.
    My point, though, is that, of the 29 terrorist incidents 
reported in the United States by the FBI in the 1990's, only 4 
resulted in fatalities.
    So yes, Oklahoma is something we have to pay attention to, 
we have to prepare to, but Oklahoma City, at the same time, is 
not emblematic of the trend of terrorism in the United States.
    Now, this isn't by any stretch of the imagination to 
suggest that the United States should become complacent about 
the threat of terrorism or that we should in any way relax our 
vigilance. Rather, what these statistics, I think, highlight is 
the asymmetry between perception and reality that a 
comprehensive terrorism threat assessment would go some way to 
addressing.
    Without such assessments, we risk adopting policies and 
making hard security choices based on misperception and 
miscalculation, rather than on hard analysis built on empirical 
evidence of the actual dimensions of the threat.
    Without ongoing, comprehensive reassessments, we cannot be 
confident that the range of policies, countermeasures, and 
defenses required to combat terrorism are the most relevant and 
appropriate ones for the United States.
    Regular systematic net assessments would also bring needed 
unity to the often excellent but, nonetheless, separate, 
fragmented, and individual assessments that the intelligence 
community carries out on a regular basis.
    This would enable us to present the big picture of the 
terrorist threat, which would facilitate both strategic 
analysis and the framing of an overall strategy. It would also 
profitably contribute to bridging the gap that lamentably has 
begun to exist between the criminal justice law enforcement 
approach to countering terrorism and that of the intelligence 
and national security approach.
    This dichotomy, which has characterized the United States' 
approach to terrorism during the 1990's, is not only myopic but 
may also prove dangerous.
    In conclusion, only through a sober and empirical 
understanding of the terrorist threat we will be able to focus 
our formidable resources where and when they can be most 
effective.
    The development of a comprehensive national strategy to 
combat terrorism would appreciably sustain the progress we've 
achieved in recent years in addressing the threat posed by 
terrorists to Americans and American interests, both in this 
country and abroad.
    Thank you very much.
    Mr. Shays. Thank you, Dr. Hoffman.
    [The prepared statement of Mr. Hoffman follows:]

    [GRAPHIC] [TIFF OMITTED] T5970.056
    
    [GRAPHIC] [TIFF OMITTED] T5970.057
    
    [GRAPHIC] [TIFF OMITTED] T5970.058
    
    [GRAPHIC] [TIFF OMITTED] T5970.059
    
    [GRAPHIC] [TIFF OMITTED] T5970.060
    
    [GRAPHIC] [TIFF OMITTED] T5970.061
    
    [GRAPHIC] [TIFF OMITTED] T5970.062
    
    [GRAPHIC] [TIFF OMITTED] T5970.063
    
    Mr. Shays. General Clapper.
    General Clapper. Mr. Chairman, distinguished members of the 
subcommittee, I am pleased to have this opportunity to speak on 
behalf of the Advisory Panel to Assess Domestic Response 
Capabilities for Terrorism Involving Weapons of Mass 
Destruction, less-awkwardly known as the Gilmore panel, after 
its chairman, Governor Jim Gilmore of Virginia.
    I might mention that I guess the epiphany experience for me 
with respect to terrorism was my participation as a senior 
intelligence investigator in the aftermath of the Khobar Towers 
attack in June 1996 in Saudi Arabia.
    In the brief time I have for these remarks, I will cut to 
the chase on the two specific findings and recommendations in 
our last report that you asked that we address--one, lack of a 
national strategy, which has already been spoken to at some 
depth this morning, for combating terrorism, and that the 
administration should develop one; and the other major point 
was the reorganization of the Federal Government's programs and 
at the present should establish a national office for combating 
terrorism in the Executive Office of the President and seek a 
statutory basis for it.
    So our suggested solution organizationally and structurally 
is different than what you heard this morning from Senator 
Rudman and General Boyd.
    On strategy, it is our view, after 2 years of looking at 
this, that the Nation now has many well-intended but often 
disconnected programs that aim individually to achieve certain 
preparedness objectives. Some of the sorted several policy and 
planning documents, such as the Presidential Decision 
Directives [PDDs] 39 and 62; the Attorney General's 1999 5-year 
plan, which Mr. Gilman mentioned; and the most recent annual 
report to Congress on combating terrorism, taken as a whole, 
constitute a national strategy.
    In our view, the view of the panel, these documents 
describe plans, various programs underway, and some objectives, 
but they do not, either individually or collectively, 
constitute a national strategy.
    We recommended in our report published in mid-December that 
the new administration develop an over-arching national 
strategy by articulating national goals for combating 
terrorism, focusing on results rather than the process.
    We made three key assumptions about forging such a 
strategy, and I think these are reflective of the composition 
of our panel, which was heavily numbered with State and local 
officials representing emergency planners, fire chiefs, police 
chiefs, and emergency medical people, public health people, and 
State emergency planners. So our perspective, I think, was a 
little bit different perhaps than the Hart-Rudman Commission 
because of the composition of our group, which was heavily 
influenced, heavily populated by State and local people.
    So the first assumption that we kept in mind in suggesting 
a national strategy was that local response entities will 
always be the first and conceivably only response. In the case 
of a major--God forbid--cataclysmic attack, however you want to 
define it, no single jurisdiction is likely going to be capable 
of responding without outside assistance.
    What we have in mind here is a multiple jurisdiction, 
perhaps a multiple State event, rather than one that is 
localized to a single locale or a single State.
    Maybe most important, we have a lot of capabilities that we 
have developed over many years for response to natural 
disasters, disease outbreaks, and accidents, so these 
capabilities can and should be used as the foundation for our 
capability to respond to a terrorist attack.
    I'd like to briefly highlight some of what our panel sees 
as the major attributes of such a strategy.
    It should be geographically and functionally comprehensive 
and should address both international and domestic terrorism in 
all its forms--chemical, biological, nuclear, conventional 
explosives, and cyber. It must encompass local, State, and 
Federal, in that order. It must include all of the functional 
constituencies--fire departments, emergency medical, police, 
public health, agriculture, etc.
    To be functionally comprehensive, the strategy, we believe, 
should address the full spectrum of the effort, from crisis 
management, as well as consequence management, and it must have 
objective measures in order to set priorities, allocate funds, 
measure progress, and establish accountability.
    The main point I would leave you with, with respect to a 
national strategy for combating terrorism, is that it must be 
truly national, not just Federal. It should be from the bottom 
up, not the other way around.
    Our other major recommendation, that we need somebody in 
charge--a theme you have already heard--is directly tied to 
devising a strategy. The display boards behind you are from our 
first report that we published at the end of 1999. It was our 
attempt to depict objectively the complexity of the Federal 
apparatus, all the organizations and agencies and offices that, 
in one degree or another, have some responsibility for various 
phases of combating terrorism.
    We found that the perception of many State and local people 
is that the structures and processes at the Federal level for 
combating terrorism are complex and confusing. Attempts that 
have been made to create a Federal focal point for coordination 
with State and local officials such as the NDPO have, at best, 
been only partially successful. Many State and local officials 
believe that Federal programs are often created and implemented 
without including them. We don't think the current coordination 
mechanisms provide for the authority, coordination, discipline, 
and accountability that is needed.
    So for all these reasons we recommended a senior 
authoritative entity in the Executive Office of the President 
which we called the ``National Office for Combating 
Terrorism,'' obviously a different construct than the Hart-
Rudman Commission suggested.
    This would have the responsibility for developing a 
strategy and coordinating the programs and budget to carry out 
that strategy. We feel strongly that this office must be 
empowered to carry out several responsibilities which are 
outlined in our full report. I will highlight three here by way 
of example.
    First and foremost, of course, is to develop and update the 
strategy, which would, of course, be presented and approved by 
the President.
    The office should have a programming and budgeting 
responsibility in which it can oversee and, through the process 
of certifying or decertifying, ensure that our programs and 
budgets among all the plethora of departments and agencies are 
synchronized and coherent.
    An area that is of particular interest and near and dear to 
my heart is the area of intelligence, which Bruce has already 
spoken to. This office would also be responsible for 
coordinating intelligence matters, to foster the national 
assessments that Dr. Hoffman spoke to, to analyze both foreign 
and domestic intelligence in a unitary way, rather than as two 
separate, disparate pursuits, and to devise policy for 
dissemination to appropriate officials at the State and local 
levels.
    We believe this office should have certain characteristics 
or attributes that we think are important. The person who heads 
the office should be politically accountable--that is, 
nominated by the President, confirmed by the Senate--and enjoy 
Cabinet-level status.
    The office must have complete oversight over all the 
Federal programs and funding to influence resource allocation. 
It should be empowered to certify what each department, agency, 
or office is spending in the interest of following a strategy, 
sticking with priorities, and minimizing duplication.
    Finally, the office should not have operational control 
over execution. Indeed, we don't want to see the various 
Federal stakeholders abrogate their responsibilities. What we 
do want to see is to have them carried out in a coherent, 
synchronized, coordinated way.
    In conclusion, Mr. Chairman and members of the 
subcommittee, the Gilmore panel members are convinced that 
these two recommendations are crucial for strengthening the 
national effort to combat terrorism. We need a true national 
strategy and we need somebody clearly in charge. This is not a 
partisan political issue. We have members on our panel who 
identify with each of the parties, virtually all the functional 
constituencies, and all governmental levels--Federal, State, 
and local. This is simply something we all agreed that the 
country needs.
    Contemplating the specter of terrorism, as you are doing 
this morning, in this country is a sobering but critically 
necessary responsibility of Government officials at all levels 
and in all branches. It is truly a national issue that requires 
synchronization of our efforts--vertically, among the Federal, 
State, and local levels, and horizontally among the functional 
constituent stakeholders.
    The individual capabilities of all critical elements must 
be brought to bear in a much more coherent way than is now the 
case. That fundamental tenet underlies our work over the last 2 
years.
    Our most imposing challenge centers on policy and whether 
we have the collective fortitude to forge change, both in 
organization and process.
    I would respectfully observe that we have studied the topic 
to death, and what we need now is action.
    Mr. Chairman, this concludes my brief statement. I would be 
pleased to address your questions.
    Mr. Shays [assuming Chair]. Thank you, General Clapper. We 
will reserve the opportunity of questioning you at the 
conclusion of our panel's testimony.
    [The prepared statement of General Clapper follows:]

    [GRAPHIC] [TIFF OMITTED] T5970.064
    
    [GRAPHIC] [TIFF OMITTED] T5970.065
    
    [GRAPHIC] [TIFF OMITTED] T5970.066
    
    [GRAPHIC] [TIFF OMITTED] T5970.067
    
    [GRAPHIC] [TIFF OMITTED] T5970.068
    
    [GRAPHIC] [TIFF OMITTED] T5970.069
    
    [GRAPHIC] [TIFF OMITTED] T5970.070
    
    [GRAPHIC] [TIFF OMITTED] T5970.071
    
    [GRAPHIC] [TIFF OMITTED] T5970.072
    
    [GRAPHIC] [TIFF OMITTED] T5970.073
    
    [GRAPHIC] [TIFF OMITTED] T5970.074
    
    [GRAPHIC] [TIFF OMITTED] T5970.075
    
    [GRAPHIC] [TIFF OMITTED] T5970.076
    
    [GRAPHIC] [TIFF OMITTED] T5970.077
    
    [GRAPHIC] [TIFF OMITTED] T5970.078
    
    [GRAPHIC] [TIFF OMITTED] T5970.079
    
    [GRAPHIC] [TIFF OMITTED] T5970.080
    
    [GRAPHIC] [TIFF OMITTED] T5970.081
    
    Mr. Gilman. I now call on Frank Cilluffo, chairman, 
Committee on Combatting Chemical, Biological, Radiological, and 
Nuclear Terrorism of the Homeland Defense Initiative Center for 
Strategic and International Studies.
    Please proceed.
    Mr. Cilluffo. See, even think tanks have an alphabet soup 
of acronyms following them.
    Mr. Gilman. That's quite a lengthy one.
    Mr. Cilluffo. Mr. Chairman, distinguished Members, I 
appreciate the opportunity to appear before you today on a 
matter of critical importance to our Nation's security. I want 
to echo the previous panelists and commend you for your 
foresight in seizing the occasion to identify gaps and 
shortfalls in our current policies, practices, procedures, and 
programs to combat terrorism.
    In considering how to best proceed, we should not be afraid 
to wipe the slate clean and review the matter anew to 
thoroughly examine the myriad of Presidential decision 
directives and policies with a view toward assessing what has 
worked to date, what has not, and what has not been addressed 
at all. This, in turn, lays the groundwork to proceed to the 
next step of crafting an effective national counterterrorism 
strategy, a theme we've obviously heard a lot of today.
    My contribution to this hearing will focus predominantly on 
terrorism involving chemical, biological, radiological, and 
nuclear weapons, or CBRN terrorism, and the threat to the 
homeland, but, by and large, I think the comments will be 
relevant--at least I hope--to counterterrorism more generally.
    During our deliberations we concluded that, although 
Federal, State, and local governments have made impressive 
strides to prepare for terrorism--specifically, terrorism using 
CBRN weapons--the whole remains far less than the sum of the 
parts. Let me briefly explain.
    The United States is now at a crossroads. While credit must 
be given where credit is due, the time has come for cold-eyed 
assessment and evaluation and the recognition that we presently 
do not have but are in need of a comprehensive strategy for 
countering the threat of terrorism, and, I might add, the 
larger dimensions of homeland defense.
    As things presently stand, however, there is neither 
assurance that we have a clear capital investment strategy nor 
a clearly defined end state, let alone a sense of the requisite 
objectives to reach this goal.
    Short of a crystal ball--and I do think it is fair to say 
that, since the end of the cold war, political forecasting has 
made astrology look respectable--but, short of a crystal ball, 
there is no way to predict with any certainty the threat to the 
homeland in the short term or the long term, though it is 
widely accepted that unmatched U.S. cultural, diplomatic, 
economic, and military power will likely cause America's 
adversaries to favor asymmetric attacks in order to offset out 
strengths and exploit our weaknesses.
    Against this background, military superiority, in itself, 
is no longer sufficient to ensure our Nation's safety. Instead, 
we need to further, by broadening our concept of national 
security so as to encompass CBRN counterterrorism.
    Make no mistakes, though. The dimension of the challenge is 
enormous. The threat of CBRN terrorism by States and non-State 
actors presents unprecedented challenges to American government 
and society, as a whole. Notably, no single Federal agency owns 
the strategic mission completely, nor do I think that's even a 
possibility. For the moment, however, many agencies are acting 
independently in what needs to be part of a whole.
    Importantly, a coherent response is not merely a goal that 
is out of reach. To the contrary, we now possess the experience 
and the knowledge for ascertaining at least the contours of a 
comprehensive strategy, a comprehensive response, and a future 
year program and budget to implement that strategy.
    It bears mentioning that strategy must be a precursor to 
budget. Now there's a concept, huh? Of course, none of this is 
to say that we have all the answers. Quite the contrary. 
Indeed, our recommendations represent just one possible course 
of action among many--and you've heard some others today--and 
it is for you, Congress, and the executive branch to decide 
precisely which of these avenues or combination thereof should 
be pursued.
    In any case, my vision of a comprehensive counterterrorism 
strategy would incorporate a full spectrum of activities, from 
prevention and deterrence to retribution and prosecution to 
domestic response preparedness. All too often, these elements 
of strategy are treated in isolation.
    Such a strategy must also incorporate the marshaling of 
domestic resources and the engagement of international allies 
and assets, and it requires monitoring and measuring the 
effectiveness or benchmarking of the many programs that 
implement the strategy so as to lead to common standards, 
practices, and procedures.
    In our report on CBRN terrorism, we set out a roadmap of 
near-term and long-term priorities for senior Federal 
Government officials to marshal Federal, State, local, private 
sector, and NGO resources to better counter the threat.
    With your patience, I will elaborate upon the highlights of 
our blueprint, beginning with a clear outline of the structure 
of our suggested strategy.
    In our review, a complete CGRN counterterrorism strategy 
involves both preventing an attack from occurring--our first 
priority should always be to get there before the bomb goes 
off--which includes deterrents, nonproliferation, 
counterproliferation and preemption, and, second, preparing 
Federal, State, and local capabilities to respond to an actual 
attack.
    In short, our counterterrorism capabilities and 
organizations must be strengthened, streamlined, and then 
synergized so that effective prevention will enhance domestic 
response preparedness and vice versa.
    On the prevention side, a multi-faceted strategy is in 
order. The common thread underpinning all of these, as we've 
heard earlier today, is the need for a first-rate intelligence 
capability. More specifically, the breadth, depth, and 
uncertainty of the terrorist threat demands significant 
investment, coordination, and retooling of the intelligence 
process across the board for the pre-attack, the warning, 
trans-attack, possible preemption, and post-attack--``who done 
it'' phases.
    In the time that remains, I want to focus on issues of 
organization and domestic response preparedness. In my view, 
effective organization is the concept that not only lies at the 
heart of a comprehensive strategy but also underpins it, from 
start, from prevention, to finish--consequence management 
response.
    We must ask ourselves whether we are properly organized to 
meet the CBRN terrorism challenge. This requires tackling very 
fundamental assumptions on national security. Are our existing 
structures, policies, and institutions adequate? CBRN terrorism 
is inherently a cross-cutting issue, but to date the Government 
has organized long vertical lines within their respective 
stovepipes.
    Our report treats the wide-ranging question of organization 
by breaking it down into three different sub-themes, and you 
saw some of the comparison and contrast between the NSSG and 
the Gilmore report here. Ours is actually a mishmash of both.
    Effective organization at the Federal level, top down; 
effective organization at the State and local levels and the 
Federal interface, the bottom up; and effective organization of 
the medical and public health communities, as you alluded to 
earlier, Mr. Chairman.
    I thought I'd make some very brief remarks on each of 
these, in turn.
    As a starting point, we've heard to death that there is a 
need for better coordination of the 40-some Federal 
organizations that have a CT--counterterrorism--role. To ensure 
that departmental an agency programs, when amalgamated, 
constitute an integrated and coherent plan, we need a high 
level official to serve as what we refer to as a ``belly 
button'' for our overall efforts, and that position needs to 
marry up three criteria, and we keep hearing the same criteria 
description is same, some of our prescriptions are different, 
but authority, accountability, and resources.
    One way to achieve this end and the course that we have 
suggested is to establish a Senate-confirmed position of 
assistant to the President or Vice President for combating 
terrorism. The assistant for combating terrorism would be 
responsible for issuing an annual national counterterrorism 
strategy and plan. This strategy would serve as the basis to 
recommend the overall level of counterterrorism spending and 
how that money should be allocated among the various 
departments and agencies of the Federal Government with CT 
responsibilities.
    Remember the golden rule--he or she with the gold rules.
    To work, the assistant must have some sway over 
departmental and agency spending. After all, policy without 
resources is rhetoric. Accordingly, we recommend the assistant 
be granted limited direction over department and agency budgets 
in the form of certification and pass-back authority. That's 
not to get it mixed up with a czar. Obviously, a czar needs 
Cossacks, and I don't know too many of those around. We have 
too many little czars. But we do see the need to pull that away 
from the National Security Council, keep it in obviously the 
Executive Office of the President or Vice President, and not 
get it confused with operations. It should have no operational 
responsibility, period.
    Let me make two very brief points on lead Federal agency. 
First, we need FEMA to assume the lead role in domestic 
response preparedness. We must capitalize FEMA with the 
personnel, as well as administrative and logistical support and 
assign FEMA the training mission for consequence management. It 
makes little sense to ``hive off'' training for consequence 
management from the very organization that would handle 
consequence management. Now that rests at Department of 
Justice. Moreover, FEMA is already well-integrated into State 
and local activity in the context of natural disasters.
    While FEMA has been revitalized and has distinguished 
itself when responding to a series of natural disasters 
recently, the same cannot be said of its national security 
missions. Put bluntly, it has become the ATM machine for 
chasing hurricanes.
    An additional point I wish to make concerns the role of 
Department of Defense. Obviously, this is a subject of much 
debate. Realistically, though, only Department of Defense even 
comes close to having the manpower and resources necessary for 
high-consequence yet low-likelihood events such as catastrophic 
CBRN terrorism on the U.S. homeland. But even the mere specter 
of suggestion of a lead military role raises vocal and 
widespread opposition on the basis of civil liberties.
    That being said, however, it is wholly appropriate for DOD 
to maintain a major role in support of civilian authorities, 
though we must grant the department the resources necessary to 
assume this responsibility.
    Perhaps it is just me, but I find it difficult to believe 
that, in a time of genuine crisis, the American people would 
take issue with what color uniform the men and women who are 
saving lives happen to be wearing.
    Even more starkly, the President should never be in a 
position of having to step up to the podium and say to the 
American people, look them in the eye, ``We could have, should 
have, would have, but didn't because of.'' Explaining to the 
American people the inside-the-beltway debates just will not 
stand up in such a crisis.
    Moving now very briefly to State and local, obviously we 
need an effort----
    Mr. Shays [resuming Chair]. I'm going to ask, could you 
finish up in a minute?
    Mr. Cilluffo. Sure.
    Mr. Shays. OK.
    Mr. Cilluffo. On the State and local side, we see the need 
for more resources to make their way to State and local for 
implementation and execution. Obviously, the threat is 
perceived to be low and the cost exceedingly high that we need 
to be able to work toward nationwide baselines. And we need to 
be able to dictate that we have an optimal transition from an 
ordinary event--responding to a heart attack--to an 
extraordinary event.
    I think that the value of to be and exercising must not be 
under-estimated. Hopefully, it will be the closest we get to 
the real thing, and, if not, it allows us to make some of the 
big mistakes on the practice fields and not on the battlefield, 
which in this context could be Main Street, U.S.A.
    I'll skip the public health section, but I want to close 
very briefly on a personal note. Last year, on April 19th, I 
had the privilege to attend the dedication of the Oklahoma City 
National Memorial on the 5-year anniversary of the attack on 
the Alfred P. Murrah Building. Just last week I was again in 
Oklahoma City and had the opportunity to visit the Memorial 
Center's Interactive Museum. I highly recommend visiting the 
museum. It was profoundly moving. I was reminded that America 
is not immune from terrorism and that if such an attack can 
occur in America's heartland, it can occur anywhere. I was 
reminded that the consequences of such acts of violence are 
very real. In this case 168 innocent lives were lost and many, 
many more affected.
    I was reminded that those first on the scene of such a 
tragedy are ordinary citizens, followed up by local emergency 
responders such as fire fighters, medics, and police officers, 
all of whom were overwhelmed except for the desire to save 
lives.
    I was touched by the experience, of course, but, most of 
all, I left proud--proud of Oklahoma's elected officials; proud 
of the survivors; proud of the many thousands of men, women, 
and children who lost family members, friends, and neighbors; 
and, perhaps most importantly, I left proud to be an American, 
for what I saw was the community strength and resilience. I 
believe this indomitable spirit, the will of the people to 
return, to rebuild, to heal, and to prosper best represents 
America's attitude toward terrorism, and I'm confident that, 
with these hearings and all of our reports, that the powers 
that be in the executive branch and Congress will develop, 
implement, and sustain such a strategy.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Cilluffo.
    [The prepared statement of Mr. Cilluffo follows:]

    [GRAPHIC] [TIFF OMITTED] T5970.082
    
    [GRAPHIC] [TIFF OMITTED] T5970.083
    
    [GRAPHIC] [TIFF OMITTED] T5970.084
    
    [GRAPHIC] [TIFF OMITTED] T5970.085
    
    [GRAPHIC] [TIFF OMITTED] T5970.086
    
    [GRAPHIC] [TIFF OMITTED] T5970.087
    
    [GRAPHIC] [TIFF OMITTED] T5970.088
    
    [GRAPHIC] [TIFF OMITTED] T5970.089
    
    [GRAPHIC] [TIFF OMITTED] T5970.090
    
    [GRAPHIC] [TIFF OMITTED] T5970.091
    
    Mr. Shays. I'm going to recognize my colleague from New 
York, but first let me put in the record, Dr. Hoffman requested 
the executive summary of the RAND Report, Strategy Framework 
for Countering Terrorism and Insurgency, be placed in the 
record, and without objection we will be happy to do that.
    Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Chairman, since I arrived late, I'd like to introduce 
into the record at this point in the record or the appropriate 
place my opening statement.
    Mr. Shays. That will be done without objection.
    Mr. Gilman. Thank you, Mr. Chairman.
    I'd like to address the entire panel with one question. You 
all had focused on the need for better coordination, avoid the 
fragmentation, put someone in charge, the need for a sound, 
effective, coordinated program. What has prevented us from 
doing that? We go back to the Gilmore Commission, the Attorney 
General's report on the 5-year interagency terrorism, 
technology crime plan. All of these have focused on the same 
conclusions--that we need to have a central agency, we need to 
have coordination, we need to get rid of the fragmentation. 
What has prevented us from doing that over these years? I 
address that to all of the panelists.
    General Clapper. I think, sir, that it has been somewhat of 
a function of perhaps inertia, unwillingness, reluctance to 
step up to the recognition of at least a potential threat here 
to reposture.
    There is the issue, I suppose, of giving up--the concern 
about giving up turf, jurisdiction, and to make do with sort of 
the interagency coordination processes which basically diffuse 
responsibility and accountability.
    There has been, I think, a reluctance to step up to the 
notion of perhaps having to give up some authority or turf in 
the interest of having someone who is clearly in charge and who 
is accountable.
    Mr. Gilman. Thank you, General Clapper.
    Dr. Hoffman, do you have some comment?
    Mr. Hoffman. It is something of a chicken and the egg 
question, but I think it is the absence of a strategy that has 
deprived us of a focus that would enable us to marshal our 
efforts and to focus on how to address the threat through 
organization. I think the trouble is it is much too fragmented 
and piecemeal, and it represents too many different things to 
too many different agencies.
    Mr. Gilman. Dr. Hoffman, we have these reports--the U.S. 
Commission on National Security, Gilmore Commission, Attorney 
General Report--all said we need a national strategy. What I'm 
asking is what has prevented us from adopting it? What can we 
do to overcome that inertia that General Clapper is referring 
to?
    Mr. Hoffman. I think it is a national will to bring 
together this comprehensive net assessment, that it has to 
start for that position and it has to come from the Executive.
    Mr. Gilman. What do you recommend? How do we bring that 
about?
    Mr. Hoffman. I think that there has to be, first, the 
process of net assessments has to begin, where we take the 
disparate pieces that have been used to define a threat and 
bring it together and have a coherent definition of what we 
need to plan against. I think that would better identify what 
the requirements are than to approach it in the direction we do 
now without----
    Mr. Gilman. But I think the experts have all identified the 
problem. What I'm asking is how do we implement now the 
recommendations from the problem that you've assessed?
    General Clapper. Well, there's probably two ways that can 
happen, sir. Either the Executive can step up to the task and 
champion a strategy and assume a position of leadership, or 
that direction can come from this institution.
    Mr. Cilluffo. Mr. Gilman, if I can also expand on that 
briefly, I agree that the executive branch plays a key role 
here. While we have seen a lot of talk for the past 8 years, it 
could be summed up--and perhaps unfairly--long on nouns, short 
on verbs. There was a lot of focus, but very little action and 
implementation.
    I think that you clearly have to get someone who is above 
the specific agency roles and missions, so I can only see that 
coming from the leadership, and that has to be someone--because 
you have different roles and missions. For example, law 
enforcement wants to string them up, the intelligence community 
wants to string them along. It's not that they don't 
necessarily fight, but they've got very different missions in 
terms of their perceptions of the world.
    I think that there are only two times in our rich yet, 
relatively speaking, young history where we really needed to 
ask these very fundamental questions, and those were the 
founding fathers, the very issue of the federalism debates, and 
then again right after World War II, where we created the 
National Security Act of 1947, where we saw the need to turn 
OSS into the Central Intelligence Agency.
    So I think this is unprecedented in terms of timing in 
terms of asking the very basic national security needs and 
architectures we need to have in place, but I think that, with 
the new administration in place and some of the principal 
cabinet members, this will happen.
    Mr. Wermuth. Mr. Gilman.
    Mr. Gilman. Yes, Mr. Wermuth?
    Mr. Wermuth. To further answer, it really is a leadership 
issue, but it is more than that, too. If you look at these 
charts, all of these agencies have very clear statutory 
responsibilities, and all of the ones that are sitting there on 
the table will have pieces of this, depending----
    Mr. Gilman. It is obvious we've got too much fragmentation.
    Mr. Wermuth. We do, but let me suggest that part of the 
process, in terms of accountability and responsibility, is 
following the money. One of the specific recommendations that 
the Gilmore Commission makes, in terms of its structure, is 
giving a senior person in the White House some budget 
responsibility--certification and decertification--requiring 
all of these agencies to bring their budgets to a table to 
eliminate duplication, to match their budgets against the 
priorities established in the national strategy, so it has to 
be a focus that is centralized, with all respect to the 
proposal from Hart Rudman. If this isn't done in the White 
House at a very senior level with someone who is sitting very 
close to the President and has the President's authority to do 
it all, we came to the conclusion that an agency, a single 
agency, would never be able to pull all of this together. I 
think, to a certain extent, that view is reflected in the CSAS 
recommendation that it needs to be in the White House, that 
there needs to be some senior oversight over this entire 
mishmash of organizations.
    Mr. Cilluffo. Mr. Gilman, could I build on that----
    Mr. Gilman. Yes, please.
    Mr. Cilluffo [continuing]. Very briefly. And, if I could be 
so bold, I sort of feel like a fisherman being asked his views 
on hoof-and-mouth. Obviously, it is a problem, and I'm here to 
tell you it is worse. But I think that Congress also needs to 
look at how it is organized to deal with this challenge.
    Right now you've got a series of both committees with 
authorization oversight, and everyone claims----
    Mr. Gilman. Well, that's what this committee is all about.
    Mr. Cilluffo. And that's why I think this committee----
    Mr. Gilman. We're doing the oversight. We're trying to 
focus on that problem. But, more important, if I might 
interrupt you, more important, Mr. Wermuth said we need someone 
close to the White House. Several years ago there was a 
national coordinator appointed within the Security Council to 
take the responsibility. What I'm asking our panelists--and 
you're all experts now--how best can we implement the 
recommendations that are obvious to all of us--to have a 
national strategy, to get rid of the fragmentation, to make it 
an effective, coordinated policy? How best can this Congress 
act to accomplish that? Any recommendations by our panelists?
    General Clapper. Well, sir, I tried to suggest that if the 
executive branch, the new administration, takes this on and 
devises a strategy and appoints a leadership with sufficient 
staff, wherewithal, and the authority, to include program and 
resources, I would hope that such a move would be endorsed by 
the Congress.
    In the absence of that, then I guess I would suggest that, 
to the extent that people think that this is an important 
issue, that these things need to be fixed, that the Congress 
would legislate, as they have in the past, to mandate the 
creation of such a national strategy and the appointment of a 
leader.
    Mr. Shays. Well, General Clapper, I welcome your 
recommendation. What do you think about the report by Senator 
Rudman today bringing about a commission in securing the 
national homeland.
    General Clapper. Sir, if you are referring to the----
    Mr. Gilman. The Rudman Commission.
    General Clapper [continuing]. Their proposal for a Homeland 
Security Agency----
    Mr. Gilman. Yes.
    General Clapper [continuing]. An embellished FEMA. Sir, we 
spent in our commission, our panel, a lot of time looking at 
various models of what might be the best construct for a lead 
element in the Government, and so we went through a lead 
element, a lead agency, picking one of the current departments 
of the Government, whether it is Defense or Justice or Health 
and Human Services, and basically we for lots of reasons 
rejected that. We looked at the notion of an embellished, 
strengthened FEMA, and we're concerned there about the mixture 
of law enforcement and consequence management kinds of 
responsibilities. Of course, one of the major law enforcement 
elements, the FBI, itself, would, of course, not be in this 
construct.
    The other difficulty we saw was an agency, subcabinet 
agency, somehow directing the coordination across Cabinet-level 
agencies.
    So we just decided that FEMA, which has been very, very 
successful, particularly under its recent leadership, is very 
well thought of, I have learned through my interactions with 
State and local people, by State and local officials, and that 
we shouldn't jeopardize the very important mission that it 
performs, perhaps embellish that and give them more resources, 
but not jeopardize what it does now by adding on these other 
agencies.
    So our conclusion--and, again, I would mention that I think 
the nature of our recommendations is heavily influenced by the 
composition of our panel, which was heavily populated by State 
and local people--was an entity in the Executive Office of the 
President, politically accountable, appointed by the President, 
confirmed by the Senate, which would have this oversight and 
authority over the entire range of all these agencies and their 
programs, all individually well intended but not necessarily 
coordinated, and that would be the entity to do that.
    Mr. Gilman. Thank you, General.
    Do any of the panelists disagree with General Clapper's 
conclusion?
    Mr. Cilluffo. Well, I wouldn't say disagree, but different 
areas of emphasis.
    I do not think the breakdown is where the rubber meets the 
road and it is at the agency level, so I'm not sure if we 
really do need an agency, nor do I think we should ever have a 
super-agency, because it gets to some of the very fundamental 
presumptions of American ethos.
    But I think the real problem is at the policy level, and a 
lot of that stems from policy without resources are rhetoric. 
You need someone who can marry up authority, accountability, 
with resources. The budgetary role which I think both of our 
reports alluded to, accentuated in different ways, is where the 
real problem, where the real breakdown is.
    Mr. Gilman. Thank you. I want to thank the panelists. Thank 
you, Mr. Chairman.
    Mr. Shays. Thank you.
    Mr. Kucinich.
    Mr. Kucinich. Thank you very much.
    I thank the witnesses for being here today.
    General Clapper, I looked at your testimony here about the 
major elements of a national strategy. Do you think preliminary 
to the execution of such a strategy there would have to be a 
comprehensive risk assessment nationally.
    General Clapper. Yes, sir. And that topic was addressed 
quite substantially in our first report we published in 1999, 
which Dr. Hoffman had a great deal to do with, since he was 
working with us then. So we treated that subject--the whole 
issue of threat and the need for threat assessments, much along 
the lines of what Dr. Hoffman testified to in our first report.
    So the short answer to your question is yes.
    Mr. Kucinich. Thank you, General.
    Now, I looked at your testimony, and you say the national--
you speak to a national strategy should be geographically and 
functionally comprehensive, should address both international 
and domestic terrorism. Then you go on to say that the 
distinction between terrorism outside the borders of the United 
States and terrorist threats domestically is eroding. What do 
you mean by that?
    General Clapper. Well, I think in many--we've had a 
proclivity, I think, has been historically to sort of separate 
domestic threats as one set and those emanating from foreign 
sources as another. Of course, as we've seen the World Trade 
Center being, I think, an example that those nice, neat 
boundaries probably are not going to apply. I think this is 
particularly true in the case of the cyber threat and the 
potential terrorist threat posed in the cyber world or cyber 
arena, where the long arm of terrorism can reach out from 
anywhere else in the world and be reflected as an apparent 
domestic attack.
    I think the mechanisms and the apparatus, the 
jurisdictional distinctions that we have in this country are 
going to be put to the test because of that erosion between 
heretofore distinct foreign threats and domestic.
    Mr. Kucinich. Would you agree that the FBI and the CIA have 
distinct and quite different missions in this Government?
    General Clapper. They do, although I think they have done a 
lot toward working together in recognition of the fact that 
terrorists don't necessarily recognize political boundaries.
    Mr. Kucinich. So would you see then more of a role for the 
Central Intelligence Agency in domestic intelligence-gathering?
    General Clapper. No, sir, I don't. What I see is what 
they're doing, and what I hope continues to occur, which is a 
close working relationship so that when the baton is handed 
off, so to speak, that it's not dropped between when there is 
evidence that a foreign-emanated threat is reaching into the 
United States, that baton is handed off, so to speak, between 
the CIA, which has a clear foreign intelligence charter, and 
the FBI, which has a domestic intelligence charter.
    Mr. Kucinich. Your sense is that right now we don't have a 
national intelligence-gathering apparatus? Is that what you're 
saying?
    General Clapper. No, I didn't say that at all, sir. We do.
    Mr. Kucinich. Well, you say----
    General Clapper. One of the elements of the entity that we 
are suggesting, the National Office for Combating Terrorism, 
would be a robust intelligence effort under the national 
coordinator, who would serve to bridge both the foreign 
intelligence overseen by the Director of Central Intelligence 
and the domestic intelligence, and we would see that as a major 
coordinating role----
    Mr. Kucinich. So it would be----
    General Clapper [continuing]. As a part of that national 
office.
    Mr. Kucinich. General, would we be hiring new people then 
to do the national intelligence gathering?
    General Clapper. I don't think so, sir. I think a few, 
perhaps, but I think what this really represents is somewhat 
the same thing that Senator Rudman was speaking of and General 
Boyd, which is a re-arraying, perhaps, in a more-efficient, 
coherent manner to deal with what this threat represents.
    Mr. Kucinich. In your testimony you say that to be 
functionally comprehensive the national strategy should address 
the full spectrum of the Nation's efforts against terrorism, 
and No. 1 you put intelligence. So what role does intelligence 
have then in your Homeland Security Act?
    General Clapper. Well, I think intelligence is a key, as 
Dr. Hoffman testified, a key element of this. It should 
underpin our national strategy. I think there is a lot that can 
be done to disseminate intelligence, regardless of where it 
comes from, whether it is foreign or domestic, to selected 
appropriate State and local officials.
    We have many intelligence-sharing relationships with 
foreign countries, so we certainly ought to be able to figure 
out mechanisms whereby we can share intelligence, for example, 
with State Governors or senior emergency planners in the States 
and selected local officials. Right now there is not a real 
good mechanism for doing that.
    I would think--and our report describes--that this is a 
role that the National Office for Combating Terrorism could 
perform, and specifically the intelligence staff that we would 
envision that would be a part of it.
    Mr. Kucinich. I'm looking at these dozens of agencies and 
departments here which have various intelligence functions. I'd 
like to focus on the Federal Bureau of Investigation for a 
moment. Would it be your opinion that the FBI is not doing an 
adequate job in handling matters and challenges relating to 
intelligence gathering for the purposes of protecting the 
United States against domestic terrorism?
    General Clapper. No, sir, I would not say that. And, on the 
contrary, I would emphasize something that I said earlier--that 
I think a lot of progress has been made because of what we've 
experienced in terms of a closer working relationship between 
the CIA and the FBI, so, as a lifelong professional 
intelligence officer, I wouldn't--I'm certainly not suggesting 
that they're not doing their job. They could certainly do it 
better if they had more resources.
    Mr. Kucinich. We've had testimony in front of this 
committee, Mr. Chairman, that would imply that we have a 
profound national security challenge, and if we do it would 
seem to me that the FBI would be the appropriate agency to deal 
with it and not to create an entirely new Governmental agency.
    I share with you the opinion that the Federal Bureau of 
Investigation does an excellent job in handling a variety of 
challenges of a law enforcement nature. It seems to me that the 
Federal Bureau of Investigation has the specific charge to 
handle a number of the elements of a national strategy that you 
have already spoken to----
    General Clapper. Yes, sir, in a domestic----
    Mr. Kucinich. May I--I'm not finished, General, if I may. 
Speaking of intelligence, deterrence, prevention, 
investigation, prosecution, preemption, crisis management, 
consequence management--that almost defines what the Federal 
Bureau of Investigation is about, at least the Bureau that I am 
familiar with, and it seems to me that in offering an entirely 
new structure here we may be wading into waters of duplicating 
existing Federal functions.
    General Clapper. No, sir. On the contrary--and, first of 
all, I'm not suggesting--we weren't in our report a profound 
new agency. What we are suggesting is a comparatively small 
staff effort appended to the Office of the President to ensure 
it has the focus and the responsibility and the authority, and 
what we're really talking about, I believe, is simply 
marshaling the totality and focusing on the totality of our 
intelligence effort by ensuring coordination between the 
foreign and the domestic.
    The CIA, in a foreign intelligence context, has potentially 
a role to play in all those dimensions that you enumerated. In 
virtually every case, I believe, the CIA potentially would have 
a role to play, as well, in working in partnership with the 
FBI.
    Mr. Kucinich. If that's the case, then, the CIA would 
inevitably become involved in matters relating to handling of 
domestic law enforcement challenges.
    General Clapper. No, sir. I don't think so. I think this 
would be in every case, as it is done now, if it turns into a 
domestic scenario--and we're hypothesizing here--the CIA I 
think would be in support, if it turns into a domestic 
situation, in support of the FBI. I don't----
    Mr. Kucinich. But they would be sharing----
    General Clapper. I do not----
    Mr. Kucinich. They would being intelligence.
    General Clapper. I'm sorry, sir?
    Mr. Kucinich. They would being intelligence.
    General Clapper. Yes, sir.
    Mr. Kucinich. And they do that now?
    General Clapper. Yes, sir.
    Mr. Kucinich. And what do they do with the intelligence 
there if it is a domestic matter? The CIA would give it to the 
FBI and the FBI would handle it.
    General Clapper. Well, I'm not sure I understand your 
question.
    Mr. Kucinich. Well, I'm just going back to the point I'm 
making, and that is that we talk about a Homeland Security Act, 
and I'm just wondering what's--there's implied here a criticism 
of the Federal Bureau of Investigation's abilities to respond.
    General Clapper. No, sir. I don't think that's implied at 
all.
    Mr. Kucinich. Well, I would think that if we're talking 
about creating a reorganization here of some sort and with new 
oversight structure with budgetary authority, as Mr. Cilluffo 
had talked about, we're certainly talking about something new, 
and you cannot countenance such a discussion without it 
reflecting on the service of the Federal Bureau of 
Investigation to this country.
    And one final comment, Mr. Chairman. I appreciate your 
indulgence. I agree with all of the panelists about the role of 
Presidential policymaking, because that really helps to set the 
tone as to what a Homeland Security Act would--what milieu it 
would operate in terms of policy. And I see two paradigms, Mr. 
Chairman, and I'll just be completed here.
    If we look at a paradigm or a model of cooperation with 
other nations in solving security challenges, then this 
Homeland Security Act could be beneficent in its scope.
    On the other hand, if a President, any President, began to 
ramp up the rhetoric and become involved in a cold war type 
atmosphere, if we go into a new cold war theater with implied 
threats, confrontation with other nations, a Homeland Security 
Act in its scope would necessarily have a totally different 
meaning.
    This is not, as you state, this is not neutral with respect 
to the policy that comes from the Executive, so it has to be, I 
think--always we have to think in terms of the context of the 
operation of the act and the international and national policy 
of an administration.
    So if we enter into a cold war type scenario again, this 
particular proposal would have implications that some may feel 
would be quite challenging for the maintenance of civil 
liberties in our society.
    I thank the chairman for his indulgence.
    Mr. Shays. We're going to have opportunity to have dialog 
back and forth. This is the last panel, and we only have four 
Members. At this time I'd recognize Mr. Tierney. And we'll go 
for a second round. I still have my first to do.
    Mr. Tierney. Thank you. I'll try not to cover any of the 
other ground. I apologize, I was at another committee meeting.
    General Clapper, you, I believe, talked a little bit about 
a comprehensive terrorism policy. In that, are you also 
factoring in nuclear issues, threats of nuclear issues? And, if 
so, how do you go about prioritizing which is the more serious 
concern for us at any given time--threat from a nuclear problem 
or threat from terrorism?
    General Clapper. Well, from a process standpoint, I would 
reinforce what Dr. Hoffman spoke to, which is the necessity for 
having the nationally sanctioned, nationally recognized threat 
assessment which would deal with specifically those issues.
    Now, those are not static. They're not set in concrete. 
That could change.
    My personal opinion, I'm inclined to agree with Senator 
Rudman. I think our current main focus perhaps ought to be in 
the chemical and biological arena, although I would comment 
that the weapon of choice continues to be for terrorists a 
vehicle-borne conventional explosive.
    Mr. Tierney. Mr. Cilluffo, you talked about having or you 
alluded to a substantial amount of good news that deserves to 
be told. Will you tell us, you know, being aware of some of the 
critical challenges we face, what have been the 
accomplishments, in your view, in the last decade or so?
    Mr. Cilluffo. Sure. I do think there are some pockets of 
very good news, ranging from State and local exercises, which 
never seem to make its way, though--what goes on in Portsmouth, 
NH, or what goes on in Denver, CO, as we saw in a major 
exercise called ``Top Off,'' often stays in those cities. So, 
while there have been some specific exercises, there have been 
some programs that are highly successful, State departments 
foreign--FEST team and the role linking in CDC and USAMARID 
within the Department of Defense into those programs are highly 
successful.
    But, again, the whole remains far less than the sums of the 
pieces, and until you start looking at ways to work toward 
common standards, baselines, and the like, you are going to 
continue to have some areas of excellence but other areas that 
are neglected.
    Mr. Tierney. Let me ask the other witnesses what they see 
have been the biggest improvements over the last 8 or 10 years.
    Mr. Hoffman. I'm perhaps too much down in the weeds, but I 
would have to say, at least in the intelligence realm, it was 
the creation of the Counterterrorist Center at the Central 
Intelligence Agency that, on the one hand, knits together both 
the operational and intelligence sides of that agency, but also 
is an all-community entity that involves the FBI and all other 
agencies involved in anticipating foreign terrorist threats.
    I think the proof, frankly, in a sense I think has been 
demonstrated that it has had a very good record in deflecting 
and thwarting terrorist acts in recent years.
    Mr. Tierney. General.
    General Clapper. Sir, I have been very impressed with the 
commitment and the concern at the State and local level. As a 
Federal servant whole professional career, this is not an area 
I was very familiar with, and through my engagement with the 
Gilmore panel and the SECDEF's Threat Reduction Advisory 
Committee and some other boards and panels I have been on, I 
have really been impressed by what is going on at the State and 
local level. In fact, I have been so impressed with it, and I 
think that's really where the focus needs to be.
    I think there is a tendency on the part of us beltway 
denizens to sort of look from the top down, and there's a lot 
of good work, a lot of sophistication, I might add, at the 
State and local level about what is involved and what is 
needed, and there's a great commitment out there.
    What the Federal level needs to do, I think, is to get its 
act together and complement and support and buttress what is 
going on at the State and local level.
    Mr. Tierney. Would you do that with research and resources?
    General Clapper. Actually, as indicated in our second 
report, there are a range of activities where the Federal level 
can facilitate and support--exercises and training, equipment 
standards, a medical plan where the Federal Government--that's 
a function that, from a national perspective, I think that 
leadership has to come from the Federal Government.
    Mr. Tierney. Thank you.
    Mr. Wermuth. And if I could just expand on that a bit--and 
this is a view that is slightly different than the one that 
Senator Rudman and General Boyd espoused earlier--some of the 
really good news has been in the actual activities and programs 
undertaken at the State and local level.
    There is a lot going on out there. In fact, my personal 
view is that most State governments, and even some larger 
municipal areas, are much better organized, much further along 
in their thinking about how to approach this problem than the 
Federal Government is.
    There is a process called ``emergency management assistance 
compacts.'' It is agreements between States to help each other 
in the event of an emergency like this or a natural disaster, 
and those are now in place in 42 States, and that continues to 
grow every day until we're going to--we'll probably be at 50 
before the end of this year.
    There are some great stories to be told in terms of multi-
jurisdictional compacts and agreements within States. The Los 
Angeles area in California now has a consortium of some 72 
jurisdictions that are focused on terrorists. They have a 
terrorism early warning group, a working group where all these 
jurisdictions get together and plan how they would respond. So 
those are great stories out there in the heartland, and General 
Clapper mentioned supporting those efforts, supporting their 
plans to create incident command systems, unified command so 
that they can approach this, the possibility of an attack, 
cohesively when the attack occurs, and that would mean then 
integrating the support, as well, from the Federal level that 
might have to be brought to bear if the incident were large 
enough.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    I'd first like to ask each of all four of you what was said 
by the previous panel that you would disagree with.
    General Clapper. Sir, I think the only thing we disagree on 
is the instrumentality or the entity to put someone in charge. 
Our construct in the Gilmore Commission was an office tethered 
to the Office of the President, as opposed to embellishing 
FEMA.
    Other than that, I think we are in pretty much uniform 
agreement, certainly on the need, on the threat, on the need 
for a strategy, and on the need for firm, assertive leadership. 
I think the issue is implementation.
    And, as Senator Rudman said, there's probably a number of 
ways that this can be accomplished. The important thing is the 
recognition of the need, the threat, and to have a national 
strategy.
    Mr. Shays. Dr. Hoffman.
    Mr. Hoffman. I think my expertise is more in the area of 
terrorist organizations and motivations than in the U.S. 
bureaucracy, so I have a different perspective. I would focus 
on their depiction of the threat.
    I think that fundamentally the--I don't disagree 
completely, but I think the United States has to be capable of 
responding along the entire spectrum of terrorist threats, not 
just the high end ones.
    I think that is important because there's the difference 
between WMD terrorism and terrorist use of chemical, 
biological, or radiological weapon that could not be at all 
motivated to kill lots of people but could be motivated to have 
profound psychological repercussions, and I think the 
terrorists realize that, and that has to be as much a factor. 
We've responded, I think, very much to the physical 
consequences and to emergency management. I think we also have 
to focus equal attention on the psychological repercussions.
    Mr. Shays. Thank you.
    Mr. Wermuth.
    Mr. Wermuth. The Hart-Rudman proposal on structure 
envisions, at least in our reading of their proposal, a super 
Federal agency that somehow is in charge. We have suggested--
the Gilmore panel has suggested that the likelihood of the 
entity being in charge is most probably going to be the local--
either the mayor or perhaps the Governor, and more so inside 
the State.
    Our proposal suggests that you don't need someone at the 
Federal level being in operational control, a single entity 
because all these agencies have part of that. You need to 
coordinate that piece in advance so that everyone clearly 
understands the role of all of these agencies, and then provide 
the support mechanism to whichever lead Federal agency might be 
selected, depending on the type of the incident, and 
particularly to support the State and local entity that 
probably is going to be really in charge of handling the 
overall response.
    It is different in approach. Hart-Rudman, in the short 
definition, is top-down. The Gilmore Commission approach is 
bottom-up, recognizing that State and local entities are likely 
going to be the entities clearly first responding and really in 
charge of the situation, and the Federal piece is going to be a 
support mechanism.
    Mr. Shays. So bottom line, though, again, with the General, 
it's the issue of how you structure the response?
    General Clapper. Yes, sir. That's correct.
    Mr. Cilluffo.
    Mr. Cilluffo. We, too, in terms of description, are very 
much singing off the same sheet of music. It's where the 
prescriptions----
    Mr. Shays. With the general----
    Mr. Cilluffo. Actually, with both Hart and Rudman and with 
the Gilmore panel.
    Mr. Shays. OK.
    Mr. Cilluffo. We don't see it as a top-down or a bottom-up; 
we see it as the convergence of both. And we placed more 
emphasis on the public health communities, but we didn't get to 
discuss the bioterrorism challenge in great depth and the 
threats to agriculture and the threats to livestock.
    But the big issue is we all see the same need. We see the 
need for a whole slough of gaps, and they are all pretty much 
on the same topic. We see the need to marry up the same three 
criteria--authority, accountability, and resources. We, too, 
did see the need to enhance and capitalize FEMA; we just didn't 
see the need to balloon it as large as it may have been and 
incorporating other agencies and missions that have other very 
important missions at hand.
    So, in reality, it is sort of a mix and match of all of the 
above here.
    Mr. Shays. OK. I think we would all agree that the attack 
in Oklahoma was done by a terrorist; is that true?
    Mr. Cilluffo. Correct.
    Mr. Shays. But more or less siding with you, Dr. Hoffman, 
on this issue, it wasn't a weapon of mass destruction. But let 
me ask, as it relates to weapons of mass destruction, the 
world--the cold war is over. I view the world as a more 
threatening environment that it's a more dangerous place. I 
happen to believe the cold war is over and the world is a more 
dangerous place.
    Dr. Hoffman, do you believe that it is not a question of if 
there will be a terrorist attack using weapons of mass 
destruction but a question of when? I'm going to ask the same 
question of you, General, and you, Mr. Wermuth, and you, Mr. 
Cilluffo.
    Mr. Hoffman. If you phrase it in terms of mass destruction, 
I would disagree with that.
    Mr. Shays. OK. General Clapper.
    General Clapper. The question, sir, is when?
    Mr. Shays. Yes, not if, in the next 10 to 20 years.
    General Clapper. Well, guess I would be more concerned, 
again, about--I mean, we have to be concerned with the full 
spectrum of threats. We can't just pick one and disregard the 
other. But I think the more likely threats will remain, at 
least as far as I can see, the conventional, perhaps large-
scale----
    Mr. Shays. You know, that's not really the question I 
asked. Dr. Hoffman, you've been clear. You believe there will 
be no attack by a terrorist in the next 10 to 20 years using a 
weapons of mass destruction. That's what you believe.
    Mr. Hoffman. Against the United States, yes, but I would 
qualify that by saying a chemical or biological or radiological 
weapon, that I do believe.
    Mr. Shays. Let me----
    Mr. Hoffman. From a mass destruction----
    Mr. Shays. Yes. I view chemical, biological, and nuclear--
they are defined as weapons of mass destruction, aren't they? I 
mean, am I misusing the term?
    Mr. Hoffman. I think incorrectly. I think they are three 
different weapons that have very different----
    Mr. Shays. OK. Let's break it down. And I do want to be 
very clear on this. You all have been involved in this issue a 
lot longer than I have, but I ended up asking to chair this 
committee with the proviso that we would have jurisdiction of 
terrorism at home and abroad. I happen to think, what I have 
been reading, frankly, for the last 10 to 20 years makes me 
very fearful, so I have my own bias about this.
    But let me just ask you, as it relates to each of the 
three--we'll separate nuclear as a weapons of mass destruction, 
I'll put chemical and biological together--and ask each of you 
if you think that the United States will face an attack by a 
terrorist using these weapons. First nuclear, Dr. Hoffman.
    Mr. Hoffman. I would put nuclear on the low end of the 
spectrum, but phrased chemical/biological/radiological, yes, I 
do.
    Mr. Shays. So it is a question of when, not if, on those 
two?
    Mr. Hoffman. Yes.
    Mr. Shays. General Clapper.
    General Clapper. I agree with that.
    Mr. Shays. OK. Mr. Wermuth.
    Mr. Wermuth. I'm going to answer your question a little bit 
differently by saying that it is easy to say it is a question 
of--it's not a question of if, but when, but that really goes 
to the heart of what we're talking about.
    I believe that terrorists will attempt to use chemical and 
biological weapons. Those I would kind of put in the same 
category. Radiological and nuclear, I would say that the 
chances of that are no. But I don't even think you can say for 
chemical and biological that it is not a question of if but 
when unless you're doing what we're all saying here, unless 
you're collecting good intelligence, unless you're analyzing 
that good intelligence. I'm unwilling to say that there will be 
a mass destructive attack in the next 20 years because I don't 
think anybody has that crystal ball. We don't have any 
intelligence right now that indicates that anyone has that 
capability, but we'd have to keep watching it.
    Mr. Shays. Wait. You misspoke. You clearly have 
intelligence that people have the capability.
    Mr. Wermuth. We have intelligence that nation states have 
capability; we don't have any intelligence that any terrorist 
group or individual currently possesses the capability to 
deliver a chemical, biological, radiological, or nuclear attack 
against the United States presently that would result in 
casualties in the thousands or tens of thousands.
    Mr. Shays. OK. With all due respect, I would accept that on 
nuclear, but could I just--and we'll get to you, Mr. Cilluffo--
I am really unclear as to how you can make a statement that 
there is not the technology for an individual cell of people, I 
mean a group, a small number of people to mount a terrorist 
attack using a chemical agent that would have devastating 
injury and death.
    Mr. Wermuth. I tried to be very careful with my choice of 
world.
    Mr. Shays. I know. I don't want you to be so careful.
    Mr. Wermuth. I said no current intelligence that indicates 
that anyone currently possesses the capability. Is the 
technology there? Could they try to acquire the capability? 
Could they culture and perhaps transport and deliver an attack? 
Yes, that's in the realm of possibility, but there is nothing 
to indicate that any entity currently possesses that capability 
where they could deliver the attack.
    Mr. Shays. Now, in Japan they didn't pull it off? Didn't 
they have the capability?
    Mr. Wermuth. Dr. Hoffman is more of an expert on this than 
I am, but I would argue that they didn't have the capability 
because they didn't have the effective means of delivering what 
it was they wanted to deliver so that the result was mass 
fatalities. That's clearly their intention.
    Mr. Shays. And I would argue--but I'm probably foolish to 
do it, given Dr. Hoffman and you all are such experts--but I 
would argue that they didn't pull off what they had the 
capability of doing.
    Mr. Wermuth. They punctured plastic garbage bags with 
umbrellas as a means of dissemination. They did not have a 
capability effectively to disseminate the agent that they had 
in their possession.
    Mr. Shays. That was in part because they didn't want to 
hurt themselves in the process. The issue of, you know, we have 
the mutual assured destruction seemed to matter to nations. It 
doesn't seem to matter to terrorists when they are willing to 
blow themselves up in the process.
    So if they had been willing to release them and do it 
manually, they might have succeeded, and they had the 
technology. They just had to do it in person.
    Mr. Cilluff.
    Mr. Cilluffo. Yes, Mr. Chairman, nor can you bomb an actor 
without an address, so deterrence needs to be rethought.
    Mr. Shays. Say that again.
    Mr. Cilluffo. Nor can you bomb an actor without an address, 
so deterrence and compellence in terms of a national strategy 
needs to be re-thought-out in terms of foreign deployment and 
projection of power. It's a little different. This requires 
personalizing, knowing some very specific information on what 
could be a very small cell or organization or group.
    Mr. Shays. OK.
    Mr. Cilluffo. In terms of likelihood----
    Mr. Shays. Not a matter of if, but when, on first nuclear--
--
    Mr. Cilluffo. Yes.
    Mr. Shays [continuing]. And then----
    Mr. Cilluffo. I agree on the bio, on the chem side with the 
caveat it depends on consequences. You may have small-scale 
biological or limited-scale chemical attacks that could be, in 
some cases, even major, major events, worse than in Oklahoma 
City, but that doesn't mean necessarily an attack that will 
damage the fabric of American society.
    But with that in mind, yes, I do think. The capabilities, 
as you referenced, exist. The intentions exist. There's no 
shortage of actors with views inimical to the United States out 
there in the world; it's when you see the marriage of the real 
bad guys wanting to exploit the real good things. Luckily, we 
have not seen that yet, but I do think we will.
    Mr. Shays. See, my feeling about terrorists is they just 
don't have as good an imagination as I have, which--I mean, 
seriously.
    Mr. Cilluffo. Let's keep it that way.
    Mr. Shays. And it's not a challenge to them, but most 
don't--one, two, and three are probably almost as far away from 
me as they are from Congressman Tierney. What would prevent 
terrorists from coming in and exploding that plan up and, in a 
sense, not causing maybe the deaths in the thousands and 
thousands, but certainly it would make all of lower eastern 
Connecticut uninhabitable for the next 10,000 years? What would 
prevent that? I mean, do you have to have some great weapons to 
do that?
    Dr. Hoffman, tell me first about Tokyo and then respond to 
the question I just asked.
    Mr. Hoffman. In Tokyo I would say what's interesting in the 
case is that something on the order of 50 scientists working 
full-time precisely on the means to develop and deploy 
chemical, and probably fewer than 20 scientists biological 
weapons. They attempted, through more sophisticated techniques 
than puncturing trash bags, to use biological weapons nine 
times through aerosol sprayers and the like, and it failed. 
That's why they moved on to chemical. They thought it was 
easier.
    I think the lesson is not that some other terrorist group 
may not succeed but may not, indeed, learn from their mistakes, 
because one thing we do know that I think all terrorist experts 
will agree on is that terrorists learn from their mistakes much 
better than governments, the governments they raid against.
    But I think what the Me case shows is that this is far more 
difficult to develop an effective chemical or biological weapon 
and then to achieve the dispersal.
    On two other occasions Ome did use chemical weapons and 
used more-sophisticated aerosol spraying devices, and it also 
didn't work.
    I think this is part of the issue, too, is that--and that 
goes to your question why wouldn't terrorists use some of these 
more-heinous types of weapons, and I think, on the one hand, it 
is because terrorists know that they have problematical 
effectiveness. Let's look at the last conventional conflict 
where chemical weapons were used, and were used promiscuously 
by Iraq against the Iranians during the Iran/Iraq War. Chemical 
weapons accounted for fewer than 5 percent of--sorry, I want to 
make sure I'm right about that, sorry--fewer than 1 percent. Of 
the 600,000 fatalities in that war, 5,000 were killed with 
chemical weapons. And I have to say, in World War I, although 
the first use of chemical weapons shocked many people, fewer 
than 12 percent of the casualties were with gas.
    So these I think psychologically are very powerful weapons, 
which the terrorists realize, and they realize that using them 
in a very discreet way will have profound psychological 
repercussions that I would argue we are not as prepared to deal 
with as perhaps the physical repercussions of them.
    Tokyo is a perfect example to figure over 5,000 persons 
injured in that attack is widely cited, but in the issue of the 
``Journal of the American Medical Association'' last year 
confirmed that approximately 75 percent of all those 
``injuries'' were, in fact, psychosomatic, psychological 
effects of people checking into hospitals because they were so 
panicked, because there was an effect of not only could the 
fire department not respond to the physical consequences, there 
was not a very effective governmental communications strategy 
in place, so therefore exactly what the terrorists want, to 
sell panic, to create fear and intimidation.
    Mr. Shays. I wonder, though, if when Great Britain had 
hearings and they had experts come and talk about the threat 
that Hitler presented in the 1930's, they would have had a lot 
of people give you 100 reasons why Hitler wasn't a threat, and 
then 1 day it dawned on people that he was one heck of a 
threat, and I wonder if it is the same kind of scenario here--
that we are kind of coasting along, and you all are the 
experts. If you, Dr. Hoffman, don't feel the technology exists, 
then I have to concede that it doesn't exist because you are 
the expert. But it just flies in the face of so much of what 
this committee has uncovered.
    General Clapper. Sir, if I could----
    Mr. Hoffman. If I could just say one thing--it's not that 
the technology doesn't exist and it's not that I don't think we 
should prepare for it. I don't think we should focus on that 
exclusively.
    If you're asking me as a terrorism expert what is the 
preeminent terrorist threat that the United States faces today, 
I would say a series of simultaneous car and truck bombings 
throughout the country, which would cause panic, which would 
demonstrate that terrorists coerced the building, which would 
be easier for them to do.
    Mr. Shays. I mean, it wasn't very difficult, except they 
were caught, to bring--a few years ago I went down to Colombia 
because the DAS operation of Colombia, their FBI, lost their 
building. It was exploded. There was a chemical weapon that 
basically caused 700 injuries and 70 people killed in Colombia.
    The question that I had there was it was agricultural 
chemicals. They took a big bus, they loaded it with 
agricultural weapons, and they blew up the building.
    When you went into one of the tunnels--the Holland Tunnel, 
I think it may have been, but it was one of the tunnels in New 
York--they were simply going to take a truck with a chemical 
explosives, a car in front, and they would stop the truck 
catercornered, they would hop into their car, and drive off, 
and the bomb would detonate, you know, a minute or two later, 
and you'd have flames coming out like they were coming out of 
the barrel of a gun on both ends. I doubt people would take 
comfort and use the tunnels much. I mean, that can happen.
    But let me ask you this: what is to prevent them from 
blowing up a nuclear site, a nuclear generating plant? I mean, 
do you have to have the technology to have radiation go then? 
What would be the technology? Dr. Cilluffo, what would it be?
    Mr. Cilluffo. Just the Mr. I'm not a doctor.
    To be honest, what you are bringing out is what hopefully 
the terrorists don't think, and that's better-placed bombs--
conventional terrorism on new targets which could cause mass 
casualties. A well-placed bomb at a LNG--liquified natural 
gas--facility or a nuclear facility or something lobbed into 
something else, yes, security and safeguards at our nuclear 
facilities do need to take these sorts of threats into 
consideration. Absolutely.
    And you're right, it is partially imagination here, and 
hopefully they don't become too imaginative. And that, again, 
is not to say----
    Mr. Shays. You know, that's really kind of--you know, 
``hopefully'' isn't good enough.
    Mr. Cilluffo. I agree with you wholeheartedly.
    Mr. Shays. And we know that's not the case. I mean, you 
know, they aren't unimaginative people. I mean, we can joke 
about it and we can say it, but they aren't.
    Mr. Cilluffo. I was actually referring to your comment. And 
I also agree that bits, bytes, bugs, and gas will never replace 
bullets and bombs, as Bruce referred to, either. But one of 
these could be a transforming event, where, as tragic as a 
major conventional terrorist attack can be, that's not going to 
shake the country's confidence to the very core.
    So I agree, it is somewhat like looking into Hitler during 
World War II. It's finding the unexpected, not looking for the 
expected and trying to look for it within that noise level. 
It's looking for the thing that you're not looking for, and 
that is a concern, and I think that by all means one of these 
events, if successful, could transform society.
    Mr. Shays. Yes. And my point in asking these questions is 
then to ask the reasons why we are here for the hearing. But, I 
mean, I don't like to have experts come--and I don't want to 
say it is going to be worse than it is going to be. I think, 
Dr. Hoffman, what you're doing is you're saying, you know, you 
need to know the threat as it exists and as it might exist so 
you can respond in an intelligent way. I mean, I value that 
tremendously. But I'm concerned that in the end that we will 
talk about this problem after there is an event, because I do 
think there will be an event. I don't think it will probably be 
nuclear, although, you know, if you speak to someone like my 
colleague, Curt Weldon from Pennsylvania, he's concerned that 
the nuclear backpacks in Russia aren't all accounted for and 
the Russians say they are. But, you know, I happen to think 
that Curt Weldon, who has made so many visits to the Soviet 
Union, has a point that we should be concerned with.
    I have more questions, but I am happy to----
    Mr. Tierney. My only thought, just the one question on 
that, is that we are so reliant on a lot of things that work 
through satellite technology these days. What's our exposure of 
vulnerability if someone decided to go after satellites?
    Mr. Cilluffo. That is a topic that broadens the scope of 
the discussion today, and I do think vulnerabilities to our 
space assets is a critical issue that the United States needs 
to look at and needs to take steps to harden those targets.
    And you could make the case, a very good case, that yes, 
that is part of homeland defense in the larger context. We are 
more dependent than anyone else on these forms of space 
satellites.
    Mr. Tierney. When you look at how much we do depend on 
them, entire systems.
    Mr. Cilluffo. And you are absolutely right. From a 
dependency standpoint, whether it is our national security 
information or whether it is telecommunications, surveillance, 
radar----
    Mr. Tierney. Well, a number of different things.
    Mr. Cilluffo. You're absolutely right, and that is 
something I do hope. And, looking at Secretary Rumsfeld's 
thoughts on this in the past, I do think that this is something 
we're going to see an awful lot of effort brought to bear, at 
least within OSD. You may even have--there's some discussion 
about a new Under Secretary for Space and Command and Control 
Communications, C4ISR, intelligence and surveillance, so I 
think that, with Secretary Rumsfeld in charge, those sorts of 
concerns will be addressed and first priorities. But I agree 
with you.
    General Clapper. If I might add a comment, no one can say 
with certainty--none of us, and certainly no one in the 
intelligence community can say that there isn't another Omshon 
Rico somewhere out there that we don't know about who may be 
going to school on what--on the Japanese cult. This is an issue 
that the intelligence community is often critiqued for. In 
other words, the dilemma is do you only go on what is 
evidentiarily based, or do you go or plan on what is 
theoretically possible. That is kind of the dilemma we are in 
here with respect to potential terrorist attacks.
    Mr. Shays. Thank you.
    Let me be clear on this. You all have basically said--first 
off, you have responded by saying that it is not a question of 
when as it relates to nuclear. I mean, I think you all have 
made it--agreed that chemical, biological may be a question of 
when, but you particularly, Dr. Hoffman--and others reinforced 
it--are saying, you know, let's not lose track of what 
terrorists can do without having to use weapons of mass 
destruction. They can do a heck of a lot of damage.
    But you all are saying to us--and if you're not, tell me 
this--that we do not have a strategy, a national strategy, to 
combat terrorism.
    Is that true, Dr. Hoffman?
    Mr. Hoffman. Yes, sir.
    Mr. Shays. OK.
    General Clapper. Yes.
    Mr. Wermuth. Yes.
    Mr. Cilluffo. Correct.
    Mr. Shays. OK. And tell me--and each of you have done it 
well, but I'd like you to attempt it, in as succinctly as 
possible, why do you think we do not have a national strategy? 
I'll start with you, Dr. Hoffman.
    Mr. Hoffman. It goes back to our assessment of the threat. 
I think we have disparate parts that we don't completely 
understand; that it has led us--and this is a very personal 
view--it has led us to focus perhaps exclusively or, if I can 
say that more kindly, perhaps too much on the high-end threats 
and to ignore the entire spectrum.
    My concern is, again, how we would respond to and address 
an Oklahoma City type threat. I think certainly we've made 
tremendous strides in addressing the potentiality of biological 
and chemical threats, but at least--and perhaps my experience 
is too narrow, but when I was meeting with first responders in 
Oklahoma, Idaho, and Florida, the complaints from three very 
different States were very similar--that they felt there were 
tremendous opportunities to get chemical and biological kits to 
respond to that end of the threats, but things that they 
needed, such as concrete cutters, thermal imaging devices that 
would respond equally as well in----
    Mr. Shays. You're just telling me a little bit more than I 
need to know right now.
    Mr. Hoffman. OK.
    Mr. Shays. So the bottom line is that--why?
    Mr. Hoffman. I think we need a strategy----
    Mr. Shays. I want to know why.
    Mr. Hoffman [continuing]. And a threat assessment to plan 
against, and we don't have a clear one now.
    Mr. Shays. And the reason? I'm just asking why? I want 
you--you said it once, but I just didn't want to lose track of 
it.
    Mr. Hoffman. There is not a net assessment or a process to 
gather together the differing strands from different agencies.
    Mr. Shays. OK.
    General.
    General Clapper. Inertia.
    Mr. Shays. OK. Thank you. You did it very succinctly, even 
more than I wanted. Can you expand?
    General Clapper. Let me suggest, if I may, sir, maybe 
another way to think about this----
    Mr. Shays. Yes.
    General Clapper [continuing]. Is that if you think of the 
terrorist threat in a military context--if I can put my former 
hat on--as a major contingency for this country, and the issue 
is whether we are basically--and I'm speaking broadly here--
still working with the legacy of the cold war and the structure 
we had to confront the cold war and the bipolar contest with 
the former Soviet Union, now we are confronted with a very 
different threat, not necessarily a nation but nation state 
based, yet fundamentally the Government is still structured as 
it was, so that's another attempt on my part to answer your 
question.
    Mr. Shays. Well, I think it is a very helpful one, frankly. 
I mean, our institutions are prepared to deal with something 
quite different than a terrorist threat, and there are lots of 
implications, aren't there? There are implications that the 
military might have to say, ``As important as this, this, and 
this is, this may be a more serious threat,'' and to 
acknowledge that may put some people, frankly, out of business 
or devalue in some ways their importance to someone who may 
have a more-important role to play in this new day and age.
    I don't want to put words in your mouth, but that's what it 
triggered to me.
    Mr. Wermuth.
    Mr. Wermuth. In my opinion, Mr. Chairman, the answer is 
leadership; specifically, leadership from the other end of 
Pennsylvania Avenue. The executive branch has the 
responsibility for developing national strategies of any kind. 
Congress can't do that. Congress can direct the strategy, but 
Congress doesn't have experience in developing national 
strategies.
    Part of the problem I think, not to be too critical of 
efforts, well-intentioned efforts that have taken place, 
particularly in the years since Oklahoma City, but it is a lack 
of recognition on the part of the executive branch about the 
nationality of this issue. It can't be fixed with a couple of 
Presidential decision directives directed at a couple of 
Federal agencies. It can't be fixed by the Justice Department's 
view exclusively on how to handle this problem. It is a 
national issue. As General Clapper said, it is not just a 
Federal issue. It has got to be part and parcel of a national 
approach to addressing the issue.
    From my own perspective, that has not been well recognized 
by the executive branch to this point.
    Mr. Cilluffo. As I did bring up earlier, I also agree 
executive leadership is absolutely critical and is probably the 
single-most-important element and ingredient to actually seeing 
action on what we are discussing today.
    I also think that the different agencies that now need a 
seat at the national security planning table has changed. 
Public Health Service, Department of Agriculture were never 
really seen as agencies that needed a front-row seat at the 
national security community.
    And I also agree with Mike Wermuth's comments that there's 
a tendency to look at the world through your own lens, through 
your own organizational chart, to look at the world's problems 
through your own organizational chart, when at reality you 
can't look at it through an individual lens but rather a prism 
that reflects all these different views. But then, again, that 
requires that belly button, that individual who can marry up 
authority, accountability, and resources.
    And I do get back to resources. The Golden Rule: he or she 
with the gold rules. If you don't have anyone who has some----
    Mr. Shays. No, that's the Gold Rule. That's not the Golden 
Rule.
    Mr. Cilluffo. The Gold Rule. Forgive me.
    Mr. Shays. OK.
    Mr. Cilluffo. But it is----
    Mr. Shays. I don't even have the courage to ask you the 
analogy of the belly button. That's a show stopper for me.
    Do you have the courage to ask him?
    Mr. Tierney. No.
    Mr. Shays. OK.
    Mr. Cilluffo. One point.
    Mr. Shays. One point?
    Mr. Cilluffo. A focal point.
    Mr. Shays. A focal point. OK. That's good enough.
    So you basically establish the problem exists, you 
basically agree that there isn't a national plan. You've 
explained to me why, and all of you have had slightly different 
responses, but they all, I think, are helpful to me to 
understand because that can then enable us to see how we work 
around that. So I get to this last point of each of you have 
kind of focused on the solutions of how we should approach 
dealing with this problem, and I'd like you succinctly to tell 
me, is it important whether we get in debate--it is important--
I'll tell you what I've heard: that the position that Mr. Clark 
has within the White House needs to be brought more out into 
the open. I mean, we haven't really been able to get him to 
testify before our committee, for instance, and have a 
meaningful dialog because he is, you know, not under our 
jurisdiction. So at least should be someone that Congress has 
the right to review and look at and question and all that.
    And then the question is: does that person end up becoming 
a czar? Does he end up becoming something a little more 
different, like was suggested by Senator Rudman? What is that? 
You've said it, but tell me what--is it important that the 
debate be about whether he is a czar or not a czar or so on? 
What is the important part?
    General Clapper. Well, as far as the Gilmore Commission is 
concerned, we developed a great aversion for the term ``czar'' 
and steadfastly avoided using that term. That implies--I think 
it has sort of a negative connotation.
    What I think I would characterize it as is an authoritative 
coordinator who is accountable and responsible and has the ear 
of the President.
    Mr. Shays. With significant powers?
    General Clapper. I think--well, significant powers----
    Mr. Shays. A budget?
    General Clapper. Well, has to have oversight and visibility 
over all the agency budgets that are--that we've got lined up 
here who have some role to play in this.
    We were very concerned that the departments and agencies we 
do have who are lined up on the wall here do not abrogate their 
obligations and responsibilities that they are now charged 
with. We're not suggesting that, or that those should be all-
subsumed, gathered up under one central organizational 
umbrella. That was not our intent at all.
    What we were suggesting is that there needs to be an 
orchestrator, a quarterback, or whatever metaphor you want to 
use, who does have oversight and influence over the allocation 
of resources and funds and can account for and address 
duplication, overlap, or omissions where there is something 
that no one is doing that this entity--and it has to be 
something more than a very capable staffer on the National 
Security Council to do it.
    Mr. Shays. So it is someone that is answerable, in the 
executive branch, answerable to the White House and Congress.
    General Clapper. Absolutely. It should be someone appointed 
by the President and confirmed by the Senate, so that personage 
is politically accountable.
    Mr. Shays. Dr. Hoffman.
    Mr. Hoffman. Congressman, my expertise is very narrow. I 
can tell you how to organize a terrorist group, but much less 
so----
    Mr. Shays. You look smart to me, though.
    Mr. Hoffman [continuing]. But much less so how to tackle 
the U.S. Governmental structure. I defer to my colleagues on 
that one.
    Mr. Shays. Sure?
    Mr. Hoffman. Absolutely.
    Mr. Shays. OK.
    Mr. Wermuth.
    Mr. Wermuth. I would simply concur with what General 
Clapper said, with the addition that it is not just a matter of 
taking the national coordinator's position in the NSC and 
elevating it to Presidential appointment with Senate 
Confirmation. If you look at all the agencies on this table, it 
is more than just national security issues. When you consider 
the CDC and the other HHS functions, when you consider the 
Department of Agriculture and the possibility of agro 
terrorism, when you consider some of the other aspects, it is 
not just an NSC function as we know the National Security 
Council. It is much broader than that, which is why we 
suggested that this new director or this new entity should have 
oversight over all of these. Even though there is still an 
important National Security Council input and focus here, it is 
significantly broader and takes, of course, into consideration 
State and local functions, as well.
    Mr. Shays. Mr. Cilluffo.
    Mr. Cilluffo. Well, to be blunt, Dick Clark has done some 
very good work as a national coordinator. I think that perhaps 
he has had too much on his plate. He's the coordinator for all 
things that go boom in the middle of the night, from cyber to 
CBRN to trans-national crime--drugs, thugs, and bugs, I guess 
you could call it in the vernacular.
    The difference that I see is the need to--is the ability to 
have some sway over budget, and this means certification and 
pass-back authority, in our recommendation, and, additionally, 
that would require congressional oversight.
    You do want to be able to fire someone, too. Let's be 
honest here and get down to--I mean, when it comes to 
accountability, you want to point a finger to see why we should 
be doing things, why aren't we doing things, and why didn't we 
do something.
    So I do think that it needs to remain within the executive 
branch, but within the EOP, in the Office of the President or 
Vice President. And, while it is a coordinator, that 
coordinator would define the yearly strategy, the annual 
strategy, and budget should be dovetailing through that 
strategy, and then they can even decrement a certain amount of 
an agency's counterterrorism-related budget if that particular 
agency isn't adhering to that.
    Mr. Shays. You all have been very interesting, very 
helpful.
    Is there a question that we should have asked that you 
would have liked to have responded to? Or is there a question 
that came up that you think you need to respond to before we 
close the record?
    General Clapper. Sir, there is one issue I would like to 
bring up, since it came up in the Hart--in the earlier 
discussion with Senator Rudman and General Boyd, and that had 
to do with the issue of lead Federal agency and the 
implications there with respect to civil liberties.
    I will tell you that this was probably the most intensely 
debated issue that has come up in the Gilmore panel in its thus 
far 2 years of existence. It is an issue the Governor, himself, 
feels very strongly about, and it is why we specifically 
recommended in our panel a discourse that in every case, no 
matter how cataclysmic an attack, that the lead Federal agency 
should always be civilian and never the Department of Defense. 
That's one issue that we weren't asked that I would like to 
address, and particularly on behalf of Governor Gilmore because 
I know that he does feel very strongly about it.
    Mr. Cilluffo. Can I just add to that very briefly?
    Mr. Shays. Sure.
    Mr. Cilluffo. The debate is normally cast as an either/or, 
as if security and freedom are mutually exclusive. I don't 
share that. In fact, I see them as enabling one another.
    Obviously, we should never infringe upon liberties in order 
to preserve them, but, at the same time, the American 
Government at the Federal, State, and local level have a 
responsibility to protect American citizens and their 
livelihood. Look at how much we've spent on projecting and 
protecting abroad. I don't see why protecting us at the 
homeland, given the potential threat, should be seen as 
anything else but truly the very core of what our national 
security community in the end is all about.
    Mr. Shays. Would you agree, though, that it should be a 
civilian?
    Mr. Cilluffo. Yes. We did make--I did make reference in my 
testimony to the role of Department of Defense, but yes, I 
think it has to be civilian. But I also, at the same time, 
don't want the President to have to turn to that cupboard and 
then find it bare. So I would also say that many people think 
that DOD capabilities are arguably more robust than they are 
because of the civil liberty discussion. The truth is, there's 
not a whole lot there, either. We need to capitalize that 
capability so the President, who has the decision, could then 
decide who is taking charge, has those assets and capabilities 
at hand if and when, God forbid, needed.
    Mr. Shays. Any other comment, any of you?
    Mr. Hoffman. If I could have one final word?
    Mr. Shays. Sure.
    Mr. Hoffman. I think we should--and this is a much bigger 
picture, a comment. I think we need to resist the temptation to 
reflexively write off terrorists as fundamentally irrational or 
fanatical, as often has been the temptation in recent years.
    Mr. Shays. Sure.
    Mr. Hoffman. I agree entirely with Senator Rudman and 
General Boyd about the resentment against the United States. I 
was in Kashmir last month and certainly first-hand witnessed it 
from relatively educated people, actually, and not even the 
fanatics necessarily, this anti-Americanism. But at the same 
time I think if we lose sight of the fact that terrorism, even 
for groups like Ome, who we don't understand, still remains 
instrumental and a logical weapon, and if we misread and 
misunderstand terrorists, I think we risk not preparing for the 
threats we really face.
    I agree with you entirely about Hitler. My only difference 
is how Hitler would have attacked, not whether he would attack.
    Mr. Shays. OK.
    All of you have provided some tremendous insights, and I 
appreciate your patience in waiting to respond and your 
patience with our questions. We're learning about this every 
day, and you've added a lot to our knowledge. Thank you very 
much.
    Mr. Hoffman. Thank you, Mr. Chairman.
    General Clapper. Thank you, Mr. Chairman.
    Mr. Wermuth. Thank you, Mr. Chairman.
    Mr. Cilluffo. Thank you, Mr. Chairman.
    Mr. Shays. With that, we'll adjourn this hearing.
    [Whereupon, at 1:12 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]


</pre></body></html>
